<html>
<title> - FREEDOM OF RELIGION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                          FREEDOM OF RELIGION

=======================================================================

                               EXCERPTED

                                from the

                           2011 ANNUAL REPORT

                                 of the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2011

                               __________

 Printed for the use of the Congressional-Executive Commission on China





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



         Available via the World Wide Web: http://www.cecc.gov




                  U.S. GOVERNMENT PRINTING OFFICE
70-937 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                    LEGISLATIVE BRANCH COMMISSIONERS



House                                Senate

CHRISTOPHER H. SMITH, New Jersey,    SHERROD BROWN, Ohio, Cochairman
Chairman                             MAX BAUCUS, Montana
                                     CARL LEVIN, Michigan
                                     DIANNE FEINSTEIN, California
                                     JEFF MERKLEY, Oregon
                                     SUSAN COLLINS, Maine
                                     JAMES RISCH, Idaho

                     EXECUTIVE BRANCH COMMISSIONERS

                  SETH D. HARRIS, Department of Labor
                    MARIA OTERO, Department of State
              FRANCISCO J. SANCHEZ, Department of Commerce
                 KURT M. CAMPBELL, Department of State
     NISHA DESAI BISWAL, U.S. Agency for International Development

                     Paul B. Protic, Staff Director

                 Lawrence T. Liu, Deputy Staff Director

                                  (ii)





                          Freedom of Religion

                                Findings

        <bullet> The Chinese government continued in the past 
        reporting year to restrict Chinese citizens' freedom of 
        religion. China's Constitution guarantees freedom of 
        religious belief but limits protections for religious 
        practice to ``normal religious activities,'' a term 
        applied in a manner that falls short of international 
        human rights protections for freedom of religion. The 
        government continued to recognize only five religions--
        Buddhism, Catholicism, Islam, Protestantism, and 
        Taoism--and required groups belonging to these 
        religions to register with the government. Registered 
        groups received some legal protection for their 
        religious activities but remained subject to ongoing 
        state controls. Members of both unregistered and 
        registered groups deemed to run afoul of state-set 
        parameters for religion faced risk of harassment, 
        detention, and other abuses. Some unregistered groups 
        had space to practice their religions, but this limited 
        tolerance did not amount to official recognition of 
        these groups' rights. Authorities also shut down the 
        activities of some unregistered groups and maintained 
        bans on other religious or spiritual communities, 
        including Falun Gong.
        <bullet> The government continued to use law to control 
        religious practice in China rather than protect the 
        religious freedom of all Chinese citizens, accelerating 
        efforts in the past reporting year to revise or pass 
        new legal measures. Planned legal measures, like others 
        passed in recent years, build on provisions contained 
        in the 2005 Regulations on Religious Affairs (RRA). 
        Recent legal measures have added more clarity to 
        ambiguous provisions in the RRA but also have 
        articulated more detailed levels of control.
        <bullet> Authorities continued to control Buddhist 
        institutions and practices and take steps to curb 
        ``unauthorized'' Buddhist temples. As of August 2011, 
        the central government and 9 of 10 Tibetan autonomous 
        prefectural governments issued or drafted regulatory 
        measures that increase substantially state infringement 
        on freedom of religion in Tibetan Buddhist monasteries 
        and nunneries.
        <bullet> Authorities continued to deny Catholics the 
        freedom to recognize the authority of the Holy See in 
        matters relating to the practice of their faith, 
        including selecting Chinese bishops. Authorities 
        continued to harass, detain, and place under 
        surveillance some unregistered priests and bishops, as 
        well as forced some bishops to attend what the Holy See 
        considers illegitimate state-controlled church events 
        against their will.
        <bullet> Local governments across China continued to 
        prohibit Muslims from engaging in religious outreach 
        and preaching activities independent of state-set 
        parameters. In the Xinjiang Uyghur Autonomous Region, 
        officials integrated curbs over Islam into security 
        campaigns and monitored mosques, placed restrictions on 
        the observance of the holiday of Ramadan, continued 
        campaigns to prevent Muslim men from wearing beards and 
        women from wearing veils, and targeted ``illegal'' 
        religious materials in censorship campaigns.
        <bullet> Cases of harassment and detention of 
        Protestants since late 2010 suggest that authorities' 
        sensitivities have intensified toward Protestants who 
        organize into large groups or across congregations, or 
        who have contact with foreign individuals or 
        organizations. This past year, the government also 
        called for ``guiding'' members of unregistered 
        Protestant groups to worship at registered sites.
        <bullet> Authorities maintained controls over Taoist 
        activities and took steps to curb ``feudal 
        superstitious activities.''
        <bullet> Authorities are currently in the second year 
        of a three-year campaign to increase efforts to 
        pressure Falun Gong practitioners to renounce their 
        belief in and practice of Falun Gong. This campaign is 
        part of a broader campaign--lasting more than a 
        decade--that reportedly has been extensive, systematic, 
        and in some cases violent. Local authorities in 
        Guangzhou city, Guangdong province, took measures to 
        restrict the freedom of Falun Gong practitioners during 
        the November 2010 Asian Games in Guangzhou, including 
        detaining Falun Gong practitioners on suspicion of 
        ``cult''-related activity.

                            Recommendations

    Members of the U.S. Congress and Administration officials 
are encouraged to:

        <all> Call on the Chinese government to guarantee to 
        all citizens freedom of religion in accordance with 
        Article 18 of the Universal Declaration of Human Rights 
        and to remove the government's framework for 
        recognizing only select religious communities for 
        limited state protections. Stress to Chinese 
        authorities that freedom of religion includes the right 
        to practice a religion, as well as the right to hold 
        religious beliefs, and that China's limited protections 
        for ``normal religious activities'' do not meet 
        protections for freedom of religion as defined by 
        international human rights standards. Call on officials 
        to integrate steps to protect freedom of religion into 
        initiatives to improve human rights in China. Stress to 
        the Chinese government that the right to freedom of 
        religion includes: The right of Buddhists to carry out 
        activities in temples independent of state controls 
        over religion, and the right of Tibetan Buddhists to 
        express openly their respect or devotion to Tibetan 
        Buddhist teachers, including the Dalai Lama; the right 
        of Catholics to recognize the authority of the Holy See 
        in matters relating to the practice of their faith, 
        including to make bishop appointments; the right of 
        Falun Gong practitioners to freely practice Falun Gong 
        inside China; the right of Muslims to engage in 
        religious outreach and preaching activities independent 
        of state-set parameters and not face curbs on their 
        internationally protected right to freedom of religion 
        in the name of upholding ``stability''; the right of 
        Protestants to worship free from state controls over 
        doctrine and to worship in unregistered house churches, 
        free from harassment, detention, and other abuses; and 
        the right of Taoists to interpret their faith free from 
        state efforts to ban practices deemed as ``feudal 
        superstitions.''
        <all> Call for the release of Chinese citizens 
        confined, detained, or imprisoned in retaliation for 
        pursuing their right to freedom of religion (including 
        the right to hold and exercise spiritual beliefs). Such 
        prisoners include: Sonam Lhatso (Tibetan Buddhist nun 
        sentenced in 2009 to 10 years' imprisonment after she 
        and other nuns staged a protest calling for Tibetan 
        independence and the Dalai Lama's long life and return 
        to Tibet); Su Zhimin (an unregistered Catholic bishop 
        who disappeared after being taken into police custody 
        in 1996); Wang Zhiwen (Falun Gong practitioner serving 
        a 16-year sentence for organizing peaceful protests by 
        Falun Gong practitioners in 1999); Nurtay Memet (Muslim 
        man sentenced to five years' imprisonment for a 
        ``superstition''-related activity connected to his 
        religion); Fan Yafeng (a legal scholar, religious 
        freedom advocate, and house church leader kept under 
        home confinement since November 2010 in connection with 
        his advocacy for unregistered Protestant communities 
        and coinciding with a broader crackdown on rights 
        advocates), as well as other prisoners mentioned in 
        this report and in the Commission's Political Prisoner 
        Database.
        <all> Call for officials to eliminate criminal and 
        administrative penalties that target religion and 
        spiritual movements and have been used to punish 
        Chinese citizens for exercising their right to freedom 
        of religion. Specifically, call for officials to 
        eliminate Article 300 of the PRC Criminal Law (which 
        criminalizes using a ``cult'' to undermine 
        implementation of state laws) and Article 27 of the PRC 
        Public Security Administration Punishment Law (which 
        stipulates detention or fines for organizing or 
        inciting others to engage in ``cult'' activities and 
        for using cults or the ``guise of religion'' to disturb 
        social order or to harm others' health).
        <all> Support initiatives to provide technical 
        assistance to the Chinese government in drafting legal 
        provisions that protect, rather than restrain, freedom 
        of religion for all Chinese citizens. Promote exchanges 
        to bring experts on religious freedom to China and 
        support training classes for Chinese officials on 
        international human rights standards for the protection 
        of freedom of religion. Promote dialogue on religious 
        freedom, including information on protecting the rights 
        of the range of religious communities and 
        organizations, including faith-based groups that carry 
        out social welfare activities.
        <all> Support non-governmental organizations that 
        collect information on conditions for religious freedom 
        in China and that inform Chinese citizens of how to 
        defend their right to freedom of religion against 
        Chinese government abuses. Support organizations that 
        help religious practitioners to appeal prisoners' 
        sentences and orders to serve reeducation through labor 
        stemming from citizens' exercise of freedom of 
        religion; to challenge government seizure of property; 
        and to challenge job discrimination based on religion.

                              Introduction

    The Chinese government continued in the Commission's 2011 
reporting year to restrict Chinese citizens' freedom of 
religion. China's Constitution guarantees freedom of religious 
belief but limits protections for religious practice to 
``normal religious activities,'' \1\ a term applied in a manner 
that falls short of international human rights protections for 
freedom of religion.\2\ The government continued to recognize 
only five religions--Buddhism, Catholicism, Islam, 
Protestantism, and Taoism--and required groups belonging to 
these religions to register with the government. Registered 
groups received some legal protection for their religious 
activities but remained subject to ongoing state controls. 
Members of both unregistered groups and registered groups 
deemed to run afoul of state-set parameters for religion faced 
risk of harassment, detention, and other abuses. Some 
unregistered groups had space to practice their religions, but 
this limited tolerance did not amount to official recognition 
of these groups' rights. Authorities also shut down the 
activities of some unregistered groups and maintained bans on 
other religious or spiritual communities, including Falun Gong.
    Despite the Chinese government's stated commitment to 
promoting internationally recognized human rights, it has not 
committed to promoting religious freedom in line with 
international human rights standards. The Chinese government's 
2009-2010 National Human Rights Action Plan, which was ``framed 
. . . in pursuit of . . . the essentials of the Universal 
Declaration of Human Rights and International Covenant on Civil 
and Political Rights,'' affirmed the government's existing 
framework of control over religion.\3\ A September 2010 State 
Council Information Office white paper, which described China's 
human rights progress in the previous year, addressed a range 
of civil, political, economic, social, and cultural rights, but 
made no reference to religion.\4\ The State Administration for 
Religious Affairs' goals for 2011 called for further 
institutionalizing existing controls and mobilizing religious 
communities to promote doctrine that advances state-defined 
notions of ``social harmony.'' \5\
    The government continued to use law to control religious 
practice in China rather than protect the religious freedom of 
all Chinese citizens, accelerating efforts in the past year to 
revise or pass new legal measures. The State Administration for 
Religious Affairs (SARA) issued measures for the management of 
Tibetan Buddhist monasteries in September 2010, effective in 
November 2010, that stipulate more extensive controls over 
these religious venues.\6\ [See Section V--Tibet for more 
information.] In January 2011, SARA announced it would issue 
new legal measures (banfa) and provisions (guiding) during the 
year on managing the ``collective religious activities'' of 
foreigners in China; on certifying teacher qualifications; on 
granting degrees at religious schools; and on managing 
religion-related foreign affairs.\7\ It also described plans to 
begin drafting measures for the management of religious schools 
and of Muslims' pilgrimage to Mecca (Hajj).\8\ The planned 
measures, like others passed in recent years, build on 
provisions in the Regulations on Religious Affairs (RRA), which 
took effect in March 2005.\9\ Recent legal measures have added 
more clarity to ambiguous provisions in the RRA but also have 
articulated more detailed levels of control. In addition, while 
such legal measures, along with the RRA, have provided limited 
protections for the activities of registered religious 
communities--such as establishing venues for worship and 
holding property--they exclude unregistered groups from these 
benefits, leaving their activities and possessions vulnerable 
to official abuses.\10\

                         Buddhism (Non-Tibetan)

    During the Commission's 2011 reporting year, the Chinese 
government and Communist Party maintained a restrictive 
framework for controlling the doctrine, practices, worship 
sites, and religious personnel of Buddhists in non-Tibetan 
areas.\11\ [For more information on conditions for Tibetan 
Buddhists, see Section V--Tibet.] State-controlled ``patriotic 
religious organizations'' \12\ monitor and control the 
doctrine, practices, property, and personnel of each of China's 
five recognized religions, and the Buddhist Association of 
China (BAC) continued to monitor, control, and restrict the 
religious activities of Buddhists.


              controls over buddhist doctrine and practice


    This past reporting year, the government and Party 
continued to control Buddhist doctrine and practices to conform 
them to government and Party goals. Local governments and 
Buddhist associations throughout China continued to call for 
government and Party controls over Buddhists.\13\ For example, 
the Shanxi Provincial Buddhist Association reportedly called on 
Buddhists to recognize Communist Party doctrine, implement the 
Party's basic policy on religion, and demonstrate allegiance to 
China and to socialism, among other goals.\14\ China's State 
Administration for Religious Affairs (SARA) called for 
authorities to ``lead'' Buddhists to hold Buddhist scripture 
reading events based on the government-dictated theme of 
``purity and harmony,'' \15\ and local authorities and Buddhist 
associations held events that echoed this theme.\16\ Local 
governments continued to restrict Buddhist practices by calling 
for the removal of practices that authorities deemed to be 
``superstitious'' or ``feudal.'' \17\ Chinese law does not 
provide clear definitions for these terms,\18\ giving 
authorities the flexibility to arbitrarily restrict the 
religious practices of Buddhists.


    controls over buddhist sites of worship and religious personnel


    The government and Party continued to impose political 
goals on the management of Buddhist sites of worship and 
personnel. Government sources continued to call for the 
construction of ``harmonious temples, mosques, and churches,'' 
\19\ and during a March 2011 interview with the central 
government news agency Xinhua, BAC head Master Chuanyin said a 
December 2010 event that focused on this theme ``aroused the 
positive nature of making contributions to economic and social 
development'' for Buddhists.\20\ The Regulations on Religious 
Affairs conditions the construction of sites of worship on 
government oversight,\21\ and local authorities throughout 
China continued to call for restrictions on what authorities 
often refer to as the ``indiscriminate construction of temples 
and excessive construction of open-air religious statues.'' 
\22\ In addition, local Buddhist associations throughout China 
continued to exercise control over the appointment of Buddhist 
monks and nuns.\23\ For example, the Mount Putuo Buddhist 
Association, in Zhoushan prefecture, Zhejiang province, 
convened a meeting in late 2010 in which an official from the 
Jiangsu Provincial Ethnic and Religious Affairs Committee 
``required'' the Mount Putuo Buddhist Association to confirm 
and put on file the qualifications of Buddhist monks and nuns 
according to guidance from SARA.\24\

                              Catholicism

    During the Commission's 2011 reporting year, the Chinese 
government and Communist Party continued to interfere in the 
religious activities of China's estimated 4 to 12 million 
Catholics.\25\ The state-controlled church continued to deny 
Catholics in China the freedom to accept the authority of the 
Holy See to select bishops, and authorities continued to detain 
and harass some Catholics who practiced their faith outside of 
state-approved parameters. In addition, authorities forced some 
bishops to attend a December 2010 national conference of state-
controlled church leadership, as well as the ordination 
ceremonies of two bishops ordained without Holy See approval.


          interference with religious personnel and activities


    The government and Party continued to implement a 
restrictive framework of control over the selection and 
activities of Catholic religious personnel. Since the 1950s, 
the government and Party have denied Catholics in China the 
freedom to accept the authority of the Holy See to select 
bishops, and the state-controlled church asserts that it has 
the authority to approve the ordination of bishops in 
China.\26\ Officials have cited the principles of 
``independence'' for Catholics in China and the ``autonomous'' 
selection and ordination of bishops as a basis for rejecting 
the authority of foreign entities (including the Holy See) over 
the state-controlled church,\27\ and China's State 
Administration for Religious Affairs continued to call for the 
promotion of these principles in 2011.\28\ In some cases, the 
state-controlled church has allowed discreet Holy See approval 
of bishops who have also received state-controlled church 
approval, and this practice continued during this reporting 
year.\29\ Nevertheless, on November 20, 2010, state-controlled 
church authorities ordained Guo Jincai of Chengde diocese,\30\ 
Hebei province, the first ordination of a Catholic bishop in 
China without Holy See approval since November 2006. 
Authorities reportedly forced some bishops to attend the 
ordination, including Li Liangui of the Cangzhou diocese, 
Hebei.\31\ In July 2011, authorities in Shantou city, Guangdong 
province, took bishops Liang Jiansen, Liao Hongqing, Su Yongda, 
and Gan Junqiu into custody \32\ and reportedly forced them to 
attend the ordination ceremony of Huang Bingzhang, another 
bishop ordained without Holy See approval.\33\
    The government continued to interfere in the affairs of 
some unregistered bishops and their congregations this past 
year. For example, authorities in Gonghui town, Zhangbei 
county, Zhangjiakou city, Hebei province, reportedly restricted 
access to the town after the March 9, 2011, death of 
unregistered bishop Hao Jinli \34\ in order to prevent large 
numbers of Catholics from traveling there to pay their respects 
to the bishop.\35\
    Authorities also continued efforts to incorporate political 
themes into Catholic doctrine and education. In November 2010, 
the Hebei Provincial Ethnic and Religious Affairs Bureau 
appointed one of its own officials, Tang Zhaojun, to join the 
leadership of the Hebei Seminary and teach classes on ideology 
and politics.\36\ Students at the seminary demonstrated soon 
thereafter,\37\ and the seminary appointed new leadership in 
January 2011.\38\ Honorary chairman Liu Bainian \39\ of both 
the Catholic Patriotic Association (CPA)--which manages the 
state-controlled church on behalf of the government and Party 
\40\--and the Bishops Conference of the Catholic Church in 
China (BCCCC)--which approves the selection of bishops in China 
\41\--said in a March 2011 interview that ``[w]hat the church 
needs is talent who love the country and love religion: 
politically, they should respect the Constitution, respect the 
law, and fervently love the socialist motherland.'' \42\


                        harassment and detention


    The government and Party continued to harass and detain 
unregistered Catholics who practiced their faith outside of 
state-approved parameters. At least 40 unregistered Chinese 
bishops are in detention, home confinement, or surveillance; 
are in hiding; or have disappeared under suspicious 
circumstances.\43\ Some have been missing for years, such as 
unregistered (or ``underground'') bishops Su Zhimin and Shi 
Enxiang, whom public security officials took into custody in 
1996 and 2001, respectively.\44\ Authorities targeted other 
Catholics more recently. For example, on April 8, 2011, public 
security officials in Beijing municipality reportedly took into 
custody Beijing-based unregistered priest Chen Hailong in 
connection with his religious activities.\45\ Authorities 
reportedly took him to a guest house in Yanqing county, 
Beijing, and then took him to an unknown location on April 
9.\46\ Authorities reportedly questioned Chen about the 
location of unregistered bishop Zhao Kexun and then released 
Chen on July 23, 2011.\47\


         bishops forced to attend national catholic conference


    From December 7 to 9, 2010, the state-controlled Catholic 
church convened the eighth National Conference of Chinese 
Catholic Representatives (NCCCR) in Beijing to choose new 
state-controlled church leaders. Throughout the NCCCR, 
government and Party leaders emphasized that Catholics in China 
should practice their religion in conformity with government 
and Party policies. For example, Jia Qinglin--a member of the 
Standing Committee of the Political Bureau of the Communist 
Party Central Committee \48\--described to CPA and BCCCC 
representatives the Party's efforts to prevent Catholics in 
China from practicing their faith independent of Party 
policies: ``Religious work is an important component of the 
work of the Party and the country . . . . [The Party Central 
Committee] continuously consolidates and develops a patriotic 
united front between the Party and the religious community.'' 
\49\
    During the time surrounding the NCCCR, the government 
denied some bishops the choice to abstain from religious 
activities that contravene the Holy See's policies. Both the 
Holy See and some delegates at the NCCCR reportedly alleged 
that authorities forced some bishops to take part in the 
NCCCR,\50\ following reports that authorities instructed local 
United Front Work Departments and Ethnic and Religious Affairs 
Bureaus throughout China to ensure that enough delegates 
attend.\51\ For example, on December 6, 2010, public security 
officials in Hengshui city, Hebei province, reportedly used 
force to remove registered bishop Feng Xinmao from the Jing 
county cathedral in Hengshui to take him to the NCCCR.\52\ 
Shortly before the NCCCR, public security authorities attempted 
to force bishop Li Liangui to participate, but they could not 
locate him,\53\ and they reportedly told members of his 
diocese, the Cangzhou diocese, that they would attempt to find 
him.\54\ After Li returned to his diocese on December 17, 2010, 
authorities reportedly took him to attend a political study 
session and ordered him to write a letter of apology for his 
absence.\55\ As of January 20, 2011, he reportedly was back at 
the Cangzhou diocese.\56\

                               Falun Gong

    During the Commission's 2011 reporting year, the Communist 
Party and Chinese government continued to carry out a 
campaign--lasting more than a decade \57\--of extensive, 
systematic, and in some cases violent efforts to pressure Falun 
Gong practitioners to renounce their belief in and practice of 
Falun Gong. The government and Party refer to this process as 
``transformation through reeducation,'' or simply 
``transformation,'' and they are currently in the second year 
of a three-year, national campaign to increase efforts to 
``transform'' Falun Gong practitioners. In addition, 
authorities in Guangzhou city, Guangdong province, targeted 
Falun Gong practitioners during the November 2010 Asian Games, 
held in Guangzhou. Falun Gong is a spiritual movement based on 
Chinese meditative exercises called qigong and the teachings of 
its founder, Li Hongzhi.\58\ It is difficult to ascertain the 
number of practitioners in China today, because the movement 
has been forced underground, but official Chinese sources and 
Falun Gong sources estimate that tens of millions of Chinese 
citizens practiced Falun Gong in the 1990s.\59\ The Commission 
tracks information on Falun Gong practitioners detained in 
connection to their practice of Falun Gong based on public 
information, which is incomplete, and reports that information 
in its Political Prisoner Database (PPD). As of September 20, 
2011, the PPD contained records of 486 Falun Gong practitioners 
currently detained, serving prison sentences, or serving 
reeducation through labor (RTL) terms.\60\ Of the 376 serving 
prison sentences and for whom sentence information is 
available, the average sentence was approximately 7 years and 7 
months.\61\


             harassment, detention, and ``transformation''


    This past reporting year, government authorities and the 6-
10 Office--an extralegal, Party-run security apparatus created 
in June 1999 to implement the ban against Falun Gong \62\--
continued to take measures to ``transform'' Falun Gong 
practitioners in China,\63\ primarily through prisons, RTL 
centers, and specialized facilities known as ``transformation 
through reeducation centers.'' \64\ For example, in September 
2010, public security officials detained 11 Falun Gong 
practitioners \65\ in Laishui county, Baoding municipality, 
Hebei province, under orders from a 6-10 Office in Baoding and 
reportedly forced them to participate in ``transformation'' at 
a ``transformation through reeducation center.'' \66\
    The government and Party also continued to harass and 
detain people who attempted to assist Falun Gong practitioners, 
such as family members and lawyers. For example, on February 
24, 2011, public security officials in Shijiazhuang city, Hebei 
province, took into custody Hu Mingliang after he sought legal 
redress against the Hebei Women's RTL Center.\67\ Public 
security officials there reportedly had sexually assaulted his 
daughter Hu Miaomiao, a Falun Gong practitioner.\68\ The 
Commission has not observed reports that provide further 
information on Hu Mingliang's whereabouts. On February 16, 
2011, public security officials in Xuanwu district, Beijing 
municipality, detained human rights lawyer Tang Jitian,\69\ 
whose lawyer's license had been revoked by the Beijing 
Municipal Justice Bureau in 2010 in connection with his 
representation of a Falun Gong practitioner in 2009.\70\ 
Authorities reportedly placed Tang under a state described as 
``house arrest'' in March 2011, as of which time he reportedly 
was suffering from tuberculosis.\71\ [For more information on 
the detention and disappearance of human rights lawyers, see 
Section II--Criminal Justice.]


 party spearheads campaign to increase efforts to ``transform'' falun 
                           gong practitioners


    The government and Party are in the second year of a three-
year, national campaign to increase efforts to ``transform'' 
Falun Gong practitioners. Documents from local governments, 
Party organizations, and other sources describe a ``2010-2012 
Transformation-Through-Reeducation Assault and Consolidation 
Overall Battle Work Plan,'' a campaign that calls on 
governments, Party organizations, businesses, and individuals 
to increase efforts to ``transform'' Falun Gong 
practitioners,\72\ including allocating more funding to 
``transformation'' work.\73\ The campaign is divided into three 
stages, with themes that include the following: \74\

  Selected Themes of the ``2010-2012 Transformation-Through-Reeducation
          Assault and Consolidation Overall Battle Work Plan''
------------------------------------------------------------------------
                    Stage                           Selected Themes
------------------------------------------------------------------------
Stage 1: 2010                                  Establishing targets for
                                                the campaign
                                               Signing ``responsibility
                                                agreements'' to
                                                implement
                                                ``transformation through
                                                reeducation''
------------------------------------------------------------------------
Stage 2: 2011                                  Training a professional
                                                cadre corps and a civil,
                                                volunteer ``help and
                                                education'' corps to
                                                participate in
                                                ``transformation'' work
                                               ``Deeply launching the
                                                work of a transformation-
                                                through-reeducation
                                                assault and
                                                consolidation''
------------------------------------------------------------------------
Stage 3: 2012                                   Developing a long-term
                                                mechanism for work to
                                                ``return to society''
                                                Falun Gong practitioners
                                                who have renounced their
                                                belief in and practice
                                                of Falun Gong
                                                Drawing lessons from the
                                                experience of the
                                                campaign and
                                                ``establish[ing] and
                                                perfect[ing] long-
                                                lasting mechanisms for
                                                transformation through
                                                reeducation work''
                                                Proposing new
                                                ``transformation through
                                                reeducation'' duties
------------------------------------------------------------------------

    The documents indicate that the Party has taken the lead 
role in initiating and overseeing the campaign. Some cite the 
October 2007 17th Party Congress as a basis for the 
campaign,\75\ and one states specifically that the 17th Party 
Congress ``put forward a new, higher requirement'' in ``the 
work of dealing with cults, including transformation through 
reeducation.'' \76\ Some note that 6-10 Office authorities at 
the central, provincial, municipal, and county levels have 
required local government authorities to participate in the 
campaign,\77\ and one describes ``transformation'' work as 
``led by the Party committees, with the cooperation of relevant 
[government] departments . . . .'' \78\ That document also 
refers to ``transformation'' work as a ``test of [the] Party's 
ability to govern.'' \79\
    The documents also call for the establishment of mechanisms 
to place greater responsibility for ``transformation'' work on 
actors at the local level, such as governments, Party 
organizations, businesses, and individuals. For example, one 
document calls on 6-10 Office authorities to sign 
``responsibility agreements'' with various businesses and to 
assess the ``transformation'' work of those businesses on a 
regular basis.\80\ In some cases, local governments have 
established specific, numerical targets. For example, the 
General Office of the Ruichang Municipal People's Government 
established the following targets: To reduce by 50 percent the 
number of people who had not been ``transformed'' by the end of 
2009, and to keep the proportion of ``recidivists'' and 
``unstable people'' within 10 percent of ``transformed'' Falun 
Gong practitioners.\81\
    The mechanisms to place greater responsibility at the local 
level include personalized and, in some cases, invasive 
measures that reach into the workplaces and homes of Falun Gong 
practitioners. For example, one document calls on authorities 
to ``mobilize and organize basic-level Party organizations and 
mass organizations, form responsibility help and education 
small groups, and enter the villages and homes [of Falun Gong 
practitioners] to conduct an educational assault.'' \82\ One 
document calls on local authorities to require local businesses 
to establish ``transformation-through-reeducation assault work 
small groups'' and develop an individual plan to ``transform'' 
each employee who has not been ``transformed.'' \83\ Three of 
the documents call on authorities to establish databases of 
information on Falun Gong practitioners.\84\


                              asian games


    Under the theme of ``oppose cults, promote harmony, welcome 
the Asian Games,'' \85\ authorities used the 2010 Asian Games 
as a justification to increase security measures targeted at 
Falun Gong practitioners (the Asian Games were held in 
Guangzhou city, Guangdong province, from November 12 to 27, 
2010). For example, on August 18, 2010, public security 
officials in Haizhu district, Guangzhou, criminally detained 
lawyer and Falun Gong practitioner Zhu Yubiao on suspicion of 
``using a cult to undermine the implementation of the law,'' 
\86\ a crime under Article 300 of the PRC Criminal Law \87\ and 
a charge commonly used against Falun Gong practitioners. The 
charges reportedly were related to Falun Gong materials that 
authorities found in Zhu's home during a sweep of Falun Gong 
practitioners and supporters ahead of the Asian Games.\88\ Zhu 
was last reported to be held at the Haizhu District Public 
Security Bureau Detention Center.\89\ In addition, a November 
10, 2010, directive from the Guangzhou Municipal People's 
Government instructed local authorities to ``prevent cult 
organizations and law breakers, including `Falun Gong,' from 
using wireless communications to initiate activities of 
interference and destruction.'' \90\

                                 Islam

    Chinese authorities maintained tight controls over the 
affairs of Muslim communities. The state-controlled Islamic 
Association of China (IAC) continued to regulate the 
confirmation of religious leaders, content of sermons, and 
overseas pilgrimages to accord with the Chinese government and 
Communist Party objectives. In 2011, the IAC marked the 10th 
anniversary of the establishment of a steering committee to 
interpret scripture and compile sermons in line with state 
goals. In an April 2011 speech on the anniversary, Wang Zuo'an, 
Director of the State Administration for Religious Affairs 
(SARA), praised the scripture interpretation work for raising 
the ``political caliber'' of religious leaders and for 
promoting ``positive positions within Islam that suit social 
progress.'' He also described the work as beneficial for 
``rallying the Muslim masses even more tightly around the Party 
and government'' and called for future work to ``even better 
conform to the needs of our country's social development.'' 
\91\ In its work plan for 2011, SARA said it would ``help'' the 
IAC in its scripture interpretation work and change of 
leadership.\92\
    SARA announced plans in 2011 to draft legal measures on 
``the management of Hajj work,'' \93\ building on existing 
requirements in the national Regulations on Religious Affairs 
and other documents that regulate pilgrimages.\94\ The 
government requires all pilgrimages to take place under the 
auspices of the IAC.\95\ Participants are subject to 
``patriotic education'' prior to departure and to restrictions 
on activities within Mecca in a stated effort to guard against 
contact with ``East Turkistan forces'' (groups, according to 
the Chinese government, that seek Xinjiang's independence) and 
other ``enemy forces.'' \96\ An official from SARA reported in 
October 2010 that authorities had strengthened ``education and 
guidance'' toward Muslims and ``investigated, prosecuted, and 
curbed'' the activities of ``illegal organizations'' as part of 
efforts to stop pilgrimages organized independently of state 
control.\97\
    Local governments maintained bans on Islamic religious 
activities outside of state-sanctioned parameters. Authorities 
in multiple localities continued to call for banning ``dawa 
preaching activities''--a term apparently used by officials to 
refer to religious outreach to fellow Muslims, including by 
foreign groups--and to stop religious ``infiltration.'' \98\ 
Authorities in a neighborhood in Shizuishan municipality, 
Ningxia Hui Autonomous Region, for example, reported in 
September 2010 on an ``implementation plan'' to address 
``dawa'' activities and on ``educating and leading'' cadres and 
religious believers to distance themselves from and stop 
``dawa'' activities and organizations.\99\ In Taojiang county, 
Yiyang municipality, Hunan province, local Islamic association 
officials reported taking steps to stop ``infiltration'' by 
outside missionaries, whose sermons were deemed to ``violate'' 
the Quran and state policy, and they reported carrying out 
``ideological work'' toward local Muslims after ordering ``dawa 
preachers'' to leave the province.\100\ In Changde 
municipality, Hunan province, authorities called for 
``vigorously performing anti-infiltration stability work'' 
following ``illegal proselytizing and infiltration activities'' 
by ``backbone members'' of ``Muslim extremist `dawa preaching 
groups' '' and foreign Christian missionaries and reported 
``appropriately handling'' three ``infiltration'' incidents 
connected to ``dawa'' groups.\101\ In Huangpu district, 
Guangzhou municipality, Guangdong province, authorities singled 
out for scrutiny the activities of ``Muslims, Tibetan 
Buddhists, and members of non-mainstream sects'' who came to 
the locality, as part of steps to guard against ``foreign 
infiltration.'' \102\


             islam in the xinjiang uyghur autonomous region


    See Section IV--Xinjiang for information on conditions in 
the Muslim-majority Xinjiang Uyghur Autonomous Region.

                             Protestantism

    During the Commission's 2011 reporting year, the Chinese 
government and Communist Party continued to implement a 
restrictive framework for control of the doctrine and practices 
of China's estimated 20 million or more registered 
Protestants,\103\ who worship in state-sanctioned churches. 
Unregistered Protestants worship outside state-sanctioned 
churches; reliable data on the number of unregistered 
Protestants is difficult to obtain, and estimates vary widely. 
Many sources estimate that there are between 50 and 70 million 
unregistered Protestants,\104\ while other estimates range from 
approximately 45 million to over 100 million.\105\ The 
government and Party continued to harass, detain, and imprison 
some members of both the registered and unregistered 
communities who ran afoul of government or Party policy. In 
addition, cases of harassment and detention since late 2010 
suggest that authorities' sensitivities intensified toward 
Protestants who assemble into large groups or across 
congregations, or who have contact with foreign individuals or 
organizations.


 government and party seek to control protestant doctrine and practices


    This past year, the government, Party, and state-controlled 
Protestant church continued to dictate the terms by which 
Protestants in China must interpret doctrine and theology. 
China's Constitution guarantees ``freedom of religious 
belief,'' \106\ but the government and Party continued to 
promote ``theological reconstruction,'' the process by which 
the state-controlled church attempts to eliminate elements of 
the Christian faith that do not conform to Party goals and 
ideology.\107\ The Three-Self Patriotic Movement (TSPM) and the 
China Christian Council (CCC) are the official organizations 
that manage registered Protestants on behalf of the government 
and Party,\108\ and TSPM Secretary General Xu Xiaohong linked 
Protestant doctrine to political goals when he reportedly said 
in September 2010 that ``[t]here are many Bible teachings that 
are complementary to the government policy of social harmony. 
These ethics, if carried out, are a great help to society and, 
in a way, help consolidate the regime.'' \109\ Officials also 
continued to link theological reconstruction to economic 
development \110\ and describe it as a ``requirement'' for the 
``mutual adaptation'' of Protestantism and socialism.\111\


     harassment, detention, and interference with places of worship


    The government and Party continued to harass, detain, 
imprison, and interfere with the religious activities of some 
Protestants who worship outside of state-approved parameters. 
In particular, cases since late 2010 suggest that authorities' 
sensitivities intensified toward members of unregistered 
Protestant congregations (``house churches'') who assembled 
into large groups or across congregations, or who had contact 
with foreign individuals or organizations. The Commission has 
not observed official statements that acknowledge a concerted 
effort to target house church congregations during this period, 
but a January 2011 document from China's State Administration 
for Religious Affairs (SARA) that outlines SARA's policies in 
2011 called on authorities to ``guide'' Protestants who 
``participate in activities at unauthorized gathering places'' 
(house churches) to worship in state-controlled churches.\112\ 
In addition, two April 2011 editorials from the Global Times 
warned unregistered Protestant congregations not to overstep 
state-approved parameters in their religious activities.\113\ 
The Global Times operates under the People's Daily,\114\ the 
official news media of the Communist Party. During this period, 
authorities throughout China stopped house church gatherings; 
took participants into custody; placed unregistered Protestants 
under ``soft detention'' (ruanjin), a form of unlawful home 
confinement; and blocked access to sites of worship. Such 
measures violate provisions in international law that protect 
religious practice and peaceful assembly, such as Articles 18 
and 20 of the Universal Declaration of Human Rights \115\ and 
Articles 18 and 21 of the International Covenant on Civil and 
Political Rights.\116\ China's Regulations on Religious Affairs 
excludes unregistered religious groups from the limited state 
protections that it offers,\117\ leaving members of house 
church congregations at risk of harassment, detention, and 
imprisonment by authorities. Selected cases follow: \118\

         Beginning on April 9, 2011, public security 
        authorities in Beijing repeatedly took into custody and 
        placed under ``soft detention'' members and leaders of 
        the unregistered Beijing Shouwang Church as they 
        attempted to worship outdoors in Beijing.\119\ Shouwang 
        reportedly has approximately 1,000 members, one of the 
        largest unregistered congregations in Beijing.\120\ 
        Shouwang began to organize outdoor worship gatherings 
        every Sunday from April 10 onward after authorities 
        reportedly pressured its landlords to deny it access to 
        indoor sites where it had previously met or planned to 
        meet.\121\ In one instance, officials reportedly took 
        into custody over 160 church members.\122\ In total, 
        officials reportedly placed approximately 500 church 
        members and leaders under ``soft detention,'' \123\ 
        including pastors Jin Tianming, Yuan Ling, Zhang 
        Xiaofeng, and Li Xiaobai, and lay leaders Sun Yi, You 
        Guanhui, and Liu Guan.\124\ As of April 29, all seven 
        remained confined to their homes.\125\
         On May 10, 2011, public security officials in 
        Zhengzhou city, Henan province, interrupted a Bible 
        study gathering of members of the Chinese House Church 
        Alliance (CHCA)--which associates with unregistered 
        Protestant congregations in multiple provinces--and 
        took into custody 49 people.\126\ The 49 included 3 
        persons who were previously detained in April after 
        having contact with CHCA leaders,\127\ as well as 
        Korean pastor Jin Yongzhe (pinyin name), and Jin's wife 
        Li Sha.\128\ All but Jin and Li were released by the 
        following day; \129\ Jin and Li were released on May 
        15.\130\ Since late 2010, authorities in various 
        locations have harassed and detained CHCA leadership, 
        including president Zhang Mingxuan \131\ and vice 
        president Shi Enhao.\132\ On June 21, public security 
        officials in Suqian city, Jiangsu province, reportedly 
        detained Shi on suspicion of ``using superstition to 
        undermine the implementation of the law,'' \133\ and 
        authorities later ordered him to serve two years of 
        reeducation through labor.\134\
         In December 2010, authorities harassed, detained, or 
        prevented from leaving the country approximately 200 
        Protestants who received invitations to attend the 
        Third Lausanne Congress on World Evangelization, held 
        in South Africa,\135\ despite the fact that a January 
        2011 SARA report lists ``proactively launching foreign 
        religious exchanges'' as an achievement of SARA in 
        2010.\136\ Authorities reportedly warned members of 
        unregistered church communities not to attend because 
        their attendance would ``endanger state security,'' 
        \137\ an explanation that, according to Fan Yafeng, 
        anecdotal evidence suggests has been broadly applied to 
        rights defenders and other citizens.\138\ Fan is a 
        prominent legal scholar, religious freedom advocate, 
        and house church leader.\139\ [See Section II--Freedom 
        of Residence and Movement for more information.]
         Between October and December 2010, authorities in 
        Beijing took Fan Yafeng into custody at least six times 
        in connection with his legal advocacy for unregistered 
        Protestant communities \140\ and his contact with 
        foreign media.\141\ Since November 1, 2010, public 
        security officials have prevented him from leaving his 
        home.\142\

    Other members of unregistered Protestant communities remain 
in detention or in prison for practicing their religion. For 
example, Uyghur Protestant Alimjan Yimit remains in the 
Xinjiang No. 3 Prison in Urumqi city, Xinjiang Uyghur 
Autonomous Region,\143\ after the Kashgar Intermediate People's 
Court sentenced him to 15 years in prison in 2009 for ``leaking 
state secrets.'' \144\ He previously told a U.S. citizen about 
an interview between himself and local authorities about his 
own preaching activities; the interview's contents were later 
classified as a state secret.\145\
    In a May 2011 letter submitted to the National People's 
Congress (NPC),\146\ 22 house church leaders and members called 
on the NPC to investigate and resolve the Beijing Shouwang 
Church's conflict with authorities, examine the 
constitutionality of the Regulations on Religious Affairs, and 
pass a law that protects freedom of religious belief.\147\ 
Drawing on Article 18 of the Universal Declaration of Human 
Rights, the letter argued that freedom of religion includes 
assembly, association, expression, education, and 
evangelization.\148\
    Authorities also continued to interfere in the religious 
practices and worship sites of registered Protestants. For 
example, in December 2010, public security officials in Bengbu 
city, Anhui province, pressured three congregations--two 
unregistered and one registered--to cancel a Christmas service 
that all three had planned to hold together.\149\ On November 
19, 2010, the registered Chengnan Church, in Tinghu district, 
Yancheng city, Jiangsu province, was demolished \150\ after 
government officials and real estate developers had 
unsuccessfully sought to purchase the church's property to 
build commercial residential buildings.\151\

                                 Taoism

    During the Commission's 2011 reporting year, the Chinese 
government and Communist Party continued to exercise control 
over Taoist \152\ religious activities in much the same way 
that they do for other religious communities in China, 
restricting doctrine, personnel, activities, and sites of 
worship.


                         controls over doctrine


    The state-controlled Chinese Taoist Association (CTA) 
continued to dictate the terms by which Taoists must interpret 
doctrine and continued to call on Taoists to accept government 
and Party goals. For example, a November 23, 2010, CTA 
announcement seeking students for a Taoist scripture reading 
class required candidates to ``fervently love the socialist 
motherland [and] uphold the leadership of the Chinese Communist 
Party.'' \153\ Authorities continued to link Taoist doctrine to 
patriotism and economic development,\154\ and in March 2011, 
China's State Administration for Religious Affairs (SARA) urged 
the CTA to hold an international event on Taoism because it 
would be significant in ``increasing the influence of Taoism, 
spreading traditional Chinese culture, increasing the country's 
soft power, and the great revival of the Chinese nation.'' 
\155\


       controls over personnel, activities, and sites of worship


    The government requires Taoist groups and religious 
personnel to register with the CTA to legally perform ritual 
services and hold Taoist ceremonies.\156\ Local governments 
continued to restrict Taoist practices by calling for the 
removal of practices that authorities deem to be 
``superstitious'' or ``feudal.'' \157\ China's Regulations on 
Religious Affairs conditions the construction of sites of 
worship on government oversight,\158\ and local governments 
continued to call on officials to monitor and control the 
``indiscriminate'' construction of Taoist temples and 
statues.\159\ Central and local authorities also used the 
November 2010 Asian Games as a justification for imposing 
political goals on Taoist practices.\160\ For example, SARA 
Vice Director Jiang Jianyong told participants at a November 
2010 Taoist cultural festival in Huizhou city, Guangdong 
province, that the festival would be ``advantageous for 
`constructing harmonious religion and serving the Asian Games.' 
'' \161\

                      Other Religious Communities

    The Chinese government did not recognize additional 
religious groups in the past year or remove its framework of 
recognizing only selected religious communities. In January 
2011, the State Administration for Religious Affairs (SARA) 
implemented a technical revision to implementing rules that 
regulate the activities of foreigners in China.\162\ The 
revised rules retain broad restrictions on foreigners' 
religious activities in China and interaction with Chinese 
citizens, barring them from leading religious activities with 
Chinese citizens in attendance, ``cultivating followers from 
among Chinese citizens,'' distributing ``religious propaganda 
materials,'' and carrying out ``other missionary activities.'' 
\163\ Leaders of the Church of Jesus Christ of Latter-day 
Saints reported in August 2010 on holding meetings with a high-
level Chinese official and said church leaders ``established a 
relationship'' that they ``expect will lead to regularizing the 
activities of the Church of Jesus Christ of Latter-day Saints 
in China.'' \164\ No new developments appeared to take place in 
this area in the past reporting year. SARA has engaged in talks 
with officials from the Orthodox Church in recent years,\165\ 
but the Orthodox Church continues to lack national-level 
recognition. A limited number of localities in China recognize 
the Orthodox church within local legislation.\166\

                                Endnotes

    \1\ PRC Constitution, issued 4 December 82, amended 12 April 88, 29 
March 93, 15 March 99, 14 March 04, art. 36.
    \2\ For protections in international law, see, e.g., the Universal 
Declaration of Human Rights (UDHR), adopted and proclaimed by UN 
General Assembly resolution 217A (III) of 10 December 48, art. 18; 
International Covenant on Civil and Political Rights (ICCPR), adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, art. 18; International Covenant on Economic, 
Social and Cultural Rights (ICESCR), adopted by UN General Assembly 
resolution 2200A (XXI) of 16 December 66, entry into force 3 January 
76, art. 13(3) (requiring States Parties to ``ensure the religious and 
moral education of . . . children in conformity with [the parents'] own 
convictions''); Convention on the Rights of the Child (CRC), adopted 
and opened for signature, ratification, and accession by UN General 
Assembly resolution 44/25 of 20 November 89, entry into force 2 
September 90, art. 14; Declaration on the Elimination of All Forms of 
Intolerance and of Discrimination Based on Religion or Belief, adopted 
by UN General Assembly resolution 36/55 of 25 November 81. See General 
Comment No. 22 to Article 18 of the ICCPR for an official 
interpretation of freedom of religion as articulated in the ICCPR. UN 
Human Rights Committee, General Comment No. 22: The Right to Freedom of 
Thought, Conscience, and Religion (Art. 18), CCPR/C/21/Rev.1/Add.4, 30 
July 93, para. 1. China is a party to the ICESCR and the CRC and a 
signatory to the ICCPR. The Chinese government has committed itself to 
ratifying, and thus bringing its laws into conformity with, the ICCPR 
and reaffirmed its commitment on April 13, 2006, in its application for 
membership in the UN Human Rights Council. China's top leaders have 
also stated on other occasions that they are preparing for ratification 
of the ICCPR, including in March 18, 2008, press conference remarks by 
Chinese Premier Wen Jiabao; in a September 6, 2005, statement by 
Politburo member and State Councilor Luo Gan at the 22nd World Congress 
on Law; in statements by Wen Jiabao during his May 2005 Europe tour; 
and in a January 27, 2004, speech by Chinese President Hu Jintao before 
the French National Assembly. China affirmed this commitment during the 
Universal Periodic Review of China's human rights record before the UN 
Human Rights Council. UN GAOR, Hum Rts. Coun., 11th Sess., Report of 
the Working Group on the Universal Periodic Review--China, A/HRC/11/25, 
3 March 09, para. 114(1). In addition, China's National Human Rights 
Action Plan affirms the principles in the ICCPR. State Council 
Information Office, ``National Human Rights Action Plan of China (2009-
2010),'' reprinted in Xinhua, 13 April 09, Introduction. The ``White 
Paper on Progress in China's Human Rights in 2009,'' issued in 2010, 
also states that the government is ``vigorously creating conditions'' 
for ratifying the ICCPR. State Council Information Office, ``White 
Paper on Progress in China's Human Rights in 2009'' [2009 nian zhongguo 
renquan shiye de jinzhan], reprinted in Xinhua, 26 September 10, sec. 
VII.
    \3\ State Council Information Office, ``National Human Rights 
Action Plan of China (2009-2010),'' reprinted in Xinhua, 13 April 09, 
Introduction, sec. II(4).
    \4\ State Council Information Office, ``White Paper on Progress in 
China's Human Rights in 2009'' [2009 nian zhongguo renquan shiye de 
jinzhan], reprinted in Xinhua, 26 September 10.
    \5\ State Administration for Religious Affairs, ``Main Points of 
State Administration for Religious Affairs' 2011 Work'' [Guojia 
zongjiao shiwu ju 2011 nian gongzuo yaodian], 24 January 11. See 
analysis in ``State Administration for Religious Affairs Outlines 
Restrictive Religious Practices for 2011,'' Congressional-Executive 
Commission on China, 12 April 11.
    \6\ Measures on the Management of Tibetan Buddhist Monasteries 
[Zangchuan fojiao simiao guanli banfa], issued 30 September 10, 
effective 1 November 10. The measures come as most Tibetan autonomous 
prefectures in China have drafted or implemented their own legal 
measures to regulate ``Tibetan Buddhist Affairs.'' See Section V--Tibet 
for additional information.
    \7\ State Administration for Religious Affairs, ``Our Country To 
Further Draft and Revise Accompanying Measures to `Regulations on 
Religious Affairs' '' [Woguo jiang jinyibu zhiding he xiuding 
``zongjiao shiwu tiaoli'' peitao banfa], 10 January 11.
    \8\ Ibid.
    \9\ Regulations on Religious Affairs [Zongjiao shiwu tiaoli], 
issued 30 November 04, effective 1 March 05.
    \10\ For information and analysis on previous legal measures, see 
CECC, 2008 Annual Report, 31 October 08, 73-75; ``New Measures Regulate 
Financial Affairs of Venues for Religious Activities,'' CECC China 
Human Rights and Rule of Law Update, No. 5, 4 June 10, 3; and ``Tibetan 
Buddhist Affairs Regulations Taking Effect in Tibetan Autonomous 
Prefectures,'' Congressional-Executive Commission on China, 10 March 
11. The Regulations on Religious Affairs condition protections on 
religious groups registering as organizations and registering their 
venues with the government. Regulations on Religious Affairs [Zongjiao 
shiwu tiaoli], issued 30 November 04, effective 1 March 05, arts. 6, 
12-15.
    \11\ This section pertains to what official sources refer to as 
``Buddhism in the Han tradition,'' an inaccurate umbrella term that 
encompasses all schools of Buddhism in China, aside from the Tibetan 
tradition. ``Buddhism in the Han tradition'' (hanchuan fojiao) is 
inaccurate in religious terms. Buddhists divide themselves according to 
a number of traditions, ritual practices, and schools of thought, but 
not in purely ethnic terms. It is also worth noting that with the 
possible exception of the Chan school of Buddhism, there is arguably no 
true ``Han tradition'' of Buddhism. All non-Chan schools of Buddhism in 
China can be clearly traced to Indian sources. In addition, there are 
Chinese citizens belonging to officially recognized ``ethnic minority'' 
groups, such as the Dai, that practice Theravada Buddhism--a branch of 
Buddhism completely outside of what Chinese officials mean by the ``Han 
tradition'' (non-esoteric Mahayana Buddhism as practiced by non-
Tibetans).
    \12\ See, e.g., ``Top Leaders Praise the Work of China's `Patriotic 
Religious Organizations,' '' CECC China Human Rights and Rule of Law 
Update, No. 3, 16 March 10, 3.
    \13\ See, e.g., ``Jiangsu Provincial Buddhist Association 
Conference Celebrating the 90th Anniversary of the Founding of the 
Party and Second Leadership Meeting Convenes'' [Jiangsu sheng foxie 
qingzhu jian dang 90 zhounian zuotan hui ji di er ci huizhang bangong 
hui zhaokai], Buddhism Online, 27 June 11; ``Jincheng Municipal 
Buddhist Association, Shanxi, Holds Art Exhibition for the 90th 
Anniversary of the Founding of the Communist Party'' [Shanxi jincheng 
shi fojiao xiehui juxing jian dang 90 zhounian wenyi huiyan], Buddhism 
Online, 20 June 11; ``Nationwide Religious Communities Hold Conference 
To Celebrate the 90th Anniversary of the Founding of the Chinese 
Communist Party'' [Quanguo zongjiao jie qingzhu zhongguo gongchan dang 
chengli 90 zhounian zuotan hui juxing], Buddhism Online, 25 June 11; 
``Shanxi Provincial Buddhist Association Confirms 2011 Work Points'' 
[Shanxi sheng fojiao xiehui queding 2011 nian gongzuo yaodian], 
Buddhism Online, 25 January 11; Yi Ming, Buddhist Academy of China, 
``Welcoming the 90th Anniversary of the Founding of the Chinese 
Communist Party, Buddhist Academy of China Holds Party Knowledge 
Conference'' [Yingjie zhongguo gongchan dang chengli 90 zhounian, wo 
yuan juxing dang de zhishi jiangzuo], 20 May 11; ``Xingtai City, Hebei, 
Convenes Religious Words and Harmony Conference'' [Hebei xingtai shi 
zhaokai zongjiao jie hua hexie yantao hui], China Religion, reprinted 
in Buddhism Online, 31 May 11; Jiangsu Provincial Ethnic and Religious 
Affairs Bureau, ``Second Jiangsu Province Buddhist Temple Abbots 
(Persons in Charge) Training Session Held'' [Di er qi jiangsu sheng 
fojiao siyuan zhuchi (fuze ren) peixun ban juban], reprinted in 
Buddhism Online, 15 March 11; ``Gaotang Ethnic and Religious Affairs 
Bureau Firmly Grasps `Three Educations' To Raise the Quality of 
Religious Personnel'' [Gaotang minzong ju henzhua `san ge jiaoyu' 
tisheng zongjiao jiaozhi renyuan suzhi], Buddhism Online, 11 April 11.
    \14\ ``Shanxi Provincial Buddhist Association Confirms 2011 Work 
Points'' [Shanxi sheng fojiao xiehui queding 2011 nian gongzuo 
yaodian], Buddhism Online, 25 January 11.
    \15\ State Administration for Religious Affairs (SARA), ``Main 
Points of State Administration for Religious Affairs' 2011 Work'' 
[Guojia zongjiao shiwu ju 2011 nian gongzuo yaodian], 24 January 11. A 
SARA document summarizing SARA's work in 2010 reported that authorities 
``supported'' Buddhist scripture reading events; it did not use the 
word ``lead.'' State Administration for Religious Affairs, ``Report on 
the Situation of State Administration for Religious Affairs' 2010 
Work'' [Guojia zongjiao shiwu ju 2010 nian gongzuo qingkuang baogao], 
24 January 11.
    \16\ See, e.g., ``Han Buddhist Scripture Reading Conference 
Scripture Reading Monk Representatives Touring Event Held in Shaanxi'' 
[Hanchuan fojiao jiangjing jiaoliu hui jiangjing fashi daibiao xunjiang 
huodong zai shaanxi juxing], Shaanxi Buddhism Net, reprinted in 
Buddhism Online, 2 April 11; Zhenjiang Municipal Ethnic and Religious 
Affairs Bureau, ``Purity, Harmony--Jiangsu Provincial Buddhist 
Association Scripture Reading Group Does Scripture Reading Tour in 
Zhenjiang'' [Qingjing hexie--jiangsu sheng fojiao xiehui jiangjing tuan 
zai zhenjiang xunhui jiangjing], 6 April 11.
    \17\ See, e.g., Gongan County Ethnic and Religious Affairs Bureau, 
``Proactively Lead, Manage According to Law'' [Jiji yindao, yi fa 
guanli], 11 May 11; Xu Yun, Suzhou Municipal Local Records Office, 
``The Situation of I-Kuan Tao in Suzhou'' [Yidaoguan zai suzhou de 
qingkuang], 6 December 10.
    \18\ The Commission has not observed official definitions of the 
terms ``feudal'' or ``superstitious'' in reference to Buddhist 
religious practices. For example, the 1993 Measures for the Management 
of Nationwide Han Buddhist Temples uses the term ``superstitious 
activities'' but does not elaborate on the meaning of the term. 
Buddhist Association of China, Measures for the Management of Han 
Buddhist Temples Nationwide [Quanguo hanchuan fojiao siyuan guanli 
banfa], adopted 21 October 93, art. 8. In addition, in at least some 
cases, authorities have asserted a link between what they deem to be 
``feudal'' or ``superstitious'' religious activities and what they deem 
to be ``cult'' activities. See, e.g., State Administration for 
Religious Affairs, ``The Genesis of and Defense Against Cults'' 
[Xiejiao de chansheng yu fangfan], 28 October 05. Authorities have 
invoked the term ``cult'' as a basis for restrictions on the freedom of 
religion of members of a variety of religious groups in China, 
including Falun Gong, groups of Protestant origin, and groups of 
Buddhist and Taoist origin. See, e.g., ChinaAid, ``Henan Police 
Unlawfully Fine, Sentence Believers to Labor Camps,'' 9 April 10; 
Ministry of Public Security, ``The Situation of Organizations Already 
Recognized as Cults'' [Xianyi rending de xiejiao zuzhi qingkuang], 
reprinted in Zhengqi Net, 5 February 07; Verna Yu, ``Christians Held To 
Extort Cash, Say Wife, Lawyer,'' South China Morning Post, 29 June 10; 
``Members of Henan House Church Ordered To Serve Reeducation Through 
Labor,'' CECC China Human Rights and Rule of Law Update, No. 8, 9 
November 10, 3; ``National Conferences Highlight Restrictions on 
Buddhist and Taoist Doctrine,'' CECC China Human Rights and Rule of Law 
Update, No. 8, 9 November 10, 4.
    \19\ See, e.g., ``Exclusive Interview With Buddhist Association of 
China Head Master Chuanyin: Religious Figures Should Improve Self-
Construction'' [Zhuanfang zhongfoxie huizhang chuanyin zhanglao: 
zongjiao jie yao jiaqiang zishen jianshe], Xinhua, reprinted in 
Buddhism Online, 2 March 11; State Administration for Religious 
Affairs, ``Serve the General Situation and Write Brilliant Works--
Review of Religious Work at the Time of the 11th Five-Year Plan'' [Fuwu 
daju xie huazhang--``shi yi wu'' shiqi zongjiao gongzuo saomiao], 29 
October 10.
    \20\ ``Exclusive Interview With Buddhist Association of China Head 
Master Chuanyin: Religious Figures Should Improve Self-Construction'' 
[Zhuanfang zhongfoxie huizhang chuanyin zhanglao: zongjiao jie yao 
jiaqiang zishen jianshe], Xinhua, reprinted in Buddhism Online, 2 March 
11.
    \21\ Regulations on Religious Affairs [Zongjiao shiwu tiaoli], 
issued 30 November 04, effective 1 March 05, arts. 13-14, 24-25, 44.
    \22\ See, e.g., State Administration for Religious Affairs, 
``Summary of the Fifth Five-Year Plan Awareness Promotion Work of the 
Nationwide Religious Work System'' [Quanguo zongjiao gongzuo xitong 
``wu wu'' pufa gongzuo zongjie], 22 March 11. For other examples, see 
Ding Cai'an, Hunan Provincial Religious Affairs Bureau, ``Humble 
Remarks on the Current Situation of the Management of Folk Beliefs and 
Methods of Improvement'' [Minjian xinyang guanli xianzhuang yu gaijin 
fangfa de chuyi], 4 January 11; Guang'an Municipal Ethnic and Religious 
Affairs Bureau, ``Guangan, Sichuan, Improves Work of Governing and 
Inspecting the Indiscriminate Construction of Temples and Excessive 
Construction of Open-Air Religious Statues'' [Sichuan guang'an jiaqiang 
luan jian miaoyu lan su lutian zongjiao zaoxiang zhili diaoyan 
gongzuo], reprinted in Buddhism Online, 7 April 11; Tongan County Party 
Committee, ``Tongan District Convenes Special Work Meeting on Stopping 
the Indiscriminate Construction of Temples and Open-Air Religious 
Statues'' [Tongan qu zhaokai zhizhi luan jian simiao he lutian zongjiao 
zaoxiang zhuanxiang gongzuo huiyi], 11 April 11.
    \23\ See, e.g., ``Nanjing City Convenes Meeting for `Confirming and 
Putting Religious Personnel on File' Pilot Work'' [Nanjing shi 
``zongjiao jiaozhi renyuan rending ji bei'an'' shidian gongzuo huiyi 
zhaokai], Buddhism Online, 28 August 10; Jiangsu Provincial Ethnic and 
Religious Affairs Committee, ``Putuoshan Buddhist Association Convenes 
Work Mobilization Meeting for Confirming and Putting on File 
Qualifications of Religious Personnel'' [Putuoshan foxie zhaokai 
jiaozhi renyuan zige rending bei'an gongzuo dongyuan hui], reprinted in 
Buddhism Online, 30 November 10; Guangdong Provincial Buddhist 
Association, ``Special Meeting on the Work of Confirming and Verifying 
the Credentials of Guangdong Provincial Buddhist Religious Personnel 
Convenes'' [Guangdong sheng fojiao jiaozhi renyuan zige rending shenhe 
gongzuo zhuanxiang huiyi zhaokai], 30 March 11.
    \24\ Jiangsu Provincial Ethnic and Religious Affairs Committee, 
``Putuoshan Buddhist Association Convenes Work Mobilization Meeting for 
Confirming and Putting on File Qualifications of Religious Personnel'' 
[Putuoshan foxie zhaokai jiaozhi renyuan zige rending bei'an gongzuo 
dongyuan hui], reprinted in Buddhism Online, 30 November 10.
    \25\ Estimates of the size of China's Catholic community vary 
widely, and there are large discrepancies between Chinese government 
estimates and international media estimates. For example, senior 
Communist Party leader Jia Qinglin has estimated the Catholic 
population at 4 million, although it is unclear whether or not his 
estimate applies to both registered and unregistered Catholics. Bao 
Daozu, ``Religion `Can Promote Harmony,' '' China Daily, 4 March 08. 
International media estimates range from 8 to over 12 million. See, 
e.g., Ambrose Leung, ``Tsang Had Audience With Pope but Cancelled,'' 
South China Morning Post, 26 March 10; ``Cardinal for China,'' Wall 
Street Journal, 16 April 09; James Pomfret, ``New Hong Kong Bishop 
Pressures China on Religious Freedom,'' Reuters, 17 April 09.
    \26\ According to the Charter of the Bishops' Conference of the 
Catholic Church in China (BCCCC), the BCCCC has the authority to 
approve the ordination of bishops in China. Bishops' Conference of the 
Catholic Church in China, Charter of the Bishops' Conference of the 
Catholic Church in China [Zhongguo tianzhujiao zhujiaotuan zhangcheng], 
adopted 9 July 04, art. 6(2).
    \27\ See, e.g., ``State Administration for Religious Affairs Issues 
Statement Regarding Vatican's Criticism of National Conference of 
Chinese Catholic Representatives'' [Guojia zongjiao ju jiu fandigang 
zhize zhongguo tianzhujiao daibiao huiyi fabiao tanhua], Xinhua, 22 
December 10.
    \28\ State Administration for Religious Affairs, ``Main Points of 
State Administration for Religious Affairs' 2011 Work'' [Guojia 
zongjiao shiwu ju 2011 nian gongzuo yaodian], 24 January 11.
    \29\ See, e.g., ``China Appoints New Bishop With Vatican Approval 
Following Souring of Relations Last Year,'' Associated Press, 11 April 
11; Jian Mei, ``New Bishop of Yanzhou Ordained With Holy See 
Approval,'' AsiaNews, 20 May 11.
    \30\ The Chinese government established the Chengde diocese in May 
2010, and the Holy See does not recognize it. See, e.g., Zhen Yuan, 
``Chengde: Illicit Episcopal Ordination, the First in Four Years,'' 
AsiaNews, 19 November 10.
    \31\ Bernardo Cervellera, ``The Return of the Cultural Revolution: 
Chinese Bishops Imprisoned or Hunted Like Criminals,'' AsiaNews, 6 
December 10; W. Zhicheng and Z. Yuan, ``Chinese Bishops Deported To 
Attend Patriotic Assembly,'' AsiaNews, 7 December 10; Zhen Yuan, 
``Chengde: Illicit Episcopal Ordination, the First in Four Years,'' 
AsiaNews, 19 November 10.
    \32\ Jian Mei and W. Zhicheng, ``Officials Kidnap Bishops of 
Guangdong To Force Them To Take Part in Illicit Shantou Ordination,'' 
AsiaNews, 11 July 11.
    \33\ Jian Mei, ``Eight Bishops in Communion With the Pope Forced To 
Take Part in Illegitimate Ordination in Shantou,'' AsiaNews, 14 July 
11; ``Bishops Attend Unapproved Ordination,'' Union of Catholic Asian 
News, 14 July 11.
    \34\ `` `Underground' Xiwanzi Bishop Dies,'' Union of Catholic 
Asian News, 10 March 11; ``Police Isolate Hebei Village After Death of 
an Underground Bishop,'' AsiaNews, 12 March 11.
    \35\ ``Police Isolate Hebei Village After Death of an Underground 
Bishop,'' AsiaNews, 12 March 11. Yao Liang, the auxiliary bishop of the 
same diocese, died in 2009, and authorities implemented restrictions on 
his funeral. For more information, see CECC, 2010 Annual Report, 10 
October 10, 102.
    \36\ Ambrose Leung, ``Catholic Seminarians Mount Rare Protest,'' 
South China Morning Post, 3 December 10; ``China's Hebei Seminary 
Strikes, Demands Revocation of Political Appointment'' [Zhongguo hebei 
xiuyuan ba ke yaoqiu chehui zhengzhi renming], CathNews China, 24 
November 10; Hebei Seminary, ``Provincial Department Leaders Come to 
Our Seminary To Express Greetings'' [Sheng ting lingdao lai wo yuan 
weiwen], 11 November 10.
    \37\ Ambrose Leung, ``Catholic Seminarians Mount Rare Protest,'' 
South China Morning Post, 3 December 10; ``China's Hebei Seminary 
Strikes, Demands Revocation of Political Appointment'' [Zhongguo hebei 
xiuyuan ba ke yaoqiu chehui zhengzhi renming], CathNews China, 24 
November 10.
    \38\ ``Shijiazhuang: Hebei Catholic Seminary Board of Directors 
Convenes Meeting'' [Shijiazhuang: hebei tianzhujiao shenzhexue yuan 
dongshi hui zhaokai huiyi], Faith Press, 14 January 11; Zhen Yuan, 
``Hebei Seminarians Welcome New Rector,'' AsiaNews, 15 January 11.
    \39\ Liu Bainian was previously the vice chairman of the Catholic 
Patriotic Association (CPA). At the Eighth National Conference of 
Chinese Catholic Representatives, he was chosen to be honorary chairman 
of the CPA and Bishops' Conference of the Catholic Church in China. 
See, e.g., ``Exclusive Interview With Catholic Patriotic Association 
and Bishops' Conference of the Catholic Church in China Honorary 
Chairman Liu Bainian'' [Zhuanfang zhongguo tianzhujiao ``yi hui yi 
tuan'' mingyu zhuxi liu bainian], China Religion, 30 March 11.
    \40\ The charter of the Catholic Patriotic Association lists among 
its duties: ``Under the leadership of the Chinese Communist Party and 
the People's government, to fervently love socialism and the 
motherland; to unite all the country's Catholic clergy and church 
members; to respect the country's constitution, laws, regulations, and 
policies; to exhibit Catholicism's own strengths; to contribute 
strength to comprehensively establishing a prosperous society; to be 
the light and the salt, the glory of God.'' Catholic Patriotic 
Association, Charter of the Chinese Catholic Patriotic Association 
[Zhongguo tianzhujiao aiguo hui zhangcheng], adopted 9 July 04, art. 6.
    \41\ The charter of the Bishops' Conference of the Catholic Church 
in China (BCCCC) does not explicitly formalize the BCCCC's relationship 
with the government or the Party. It does, however, formalize its 
relationship with the CPA. Bishops' Conference of the Catholic Church 
in China, Charter of the Bishops' Conference of the Catholic Church in 
China [Zhongguo tianzhujiao zhujiaotuan zhangcheng], adopted 9 July 04, 
art. 1.
    \42\ ``Exclusive Interview With Catholic Patriotic Association and 
Bishops' Conference of the Catholic Church in China Honorary Chairman 
Liu Bainian'' [Zhuanfang zhongguo tianzhujiao ``yi hui yi tuan'' mingyu 
zhuxi liu bainian], China Religion, 30 March 11.
    \43\ U.S. Commission on International Religious Freedom, ``2010 
Annual Report,'' May 2010, 110.
    \44\ Bernardo Cervellera, ``In Hebei, Underground Bishop Joins 
Chinese Patriotic Catholic Association,'' AsiaNews, 29 October 09.
    \45\ ``Priests Not Spared in China's Crackdown,'' Union of Catholic 
Asian News, 13 April 11; ``Three Priests in Hebei Province Detained or 
Whereabouts Unknown'' [Hebei sheng san ming shenfu bei juliu huo xialuo 
bu ming], CathNews China, 13 April 11.
    \46\ Ibid.
    \47\ ``Officials Free `Underground' Priest,'' Union of Catholic 
Asian News, 4 August 11.
    \48\ Jia is also head of the Chinese People's Political 
Consultative Conference (CPPCC). The CPPCC Web site lists among the 
functions of the CPPCC ``political consultation,'' ``democratic 
oversight,'' and ``participation in the deliberation and administration 
of state affairs,'' and it contains representatives from religious 
communities. Chinese People's Political Consultative Conference, ``The 
Main Functions of the Chinese People's Political Consultative 
Conference'' [Zhongguo zhengxie de zhuyao zhineng], 29 June 10.
    \49\ ``Jia Qinglin Meets With Representatives From Eighth National 
Conference of Chinese Catholic Representatives'' [Jia qinglin huijian 
zhongguo tianzhu jiao di ba ci daibiao huiyi daibiao], Xinhua, 9 
December 10.
    \50\ See, e.g., ``Chinese Catholics Mull Post-Congress Future,'' 
Union of Catholic Asian News, 17 December 10. In a communique from the 
Press Office of the Holy See, the Holy See alleged that ``many Bishops 
and priests were forced to take part in the [National Conference of 
Chinese Catholic Representatives].'' The full text of the communique is 
reprinted in ``Vatican `Sorrow' Over China Catholic Congress,'' Union 
of Catholic Asian News, 17 December 10.
    \51\ ``Three Days in China's Catholic Congress,'' Union of Catholic 
Asian News, 16 December 10.
    \52\ Keith B. Richburg, ``China Defies Vatican on Bishop 
Conclave,'' Washington Post, 8 December 10.
    \53\ Bernardo Cervellera, ``The Return of the Cultural Revolution: 
Chinese Bishops Imprisoned or Hunted Like Criminals,'' AsiaNews, 6 
December 10; W. Zhicheng and Z. Yuan, ``Chinese Bishops Deported To 
Attend Patriotic Assembly,'' AsiaNews, 7 December 10.
    \54\ Ibid.
    \55\ ``Bishop Voted Chinese Catholic of 2010,'' Union of Catholic 
Asian News, 20 January 11.
    \56\ Ibid.
    \57\ The campaign began after the Communist Party designated Falun 
Gong an illegal ``cult organization'' in 1999, following a peaceful 
demonstration held by its practitioners near the Party leadership 
compound in Beijing.
    \58\ For more information on the teachings and practices of Falun 
Gong, see David Ownby, Falun Gong and the Future of China (New York: 
Oxford University Press, 2008).
    \59\ Official estimates placed the number of adherents inside China 
at 30 million prior to the crackdown. Falun Gong sources estimate that 
there was twice that number. Maria Hsia Chang, Falun Gong: The End of 
Days (New Haven: Yale University Press, 2004), 2. In April 2009, Han 
Zhiguang, a Chinese attorney who has defended Falun Gong clients, 
reported that there remain ``huge numbers'' of practitioners in China 
and that the movement is ``expanding.'' Malcolm Moore, ``Falun Gong 
`Growing' in China Despite 10-Year Ban,'' Telegraph, 24 April 09.
    \60\ Based on data in the Commission's Political Prisoner Database 
as of September 20, 2011.
    \61\ Ibid.
    \62\ For more information on the background and activities of the 
6-10 Office, see CECC, 2010 Annual Report, 10 October 10, 105; CECC, 
2009 Annual Report, 10 October 09, 121-23.
    \63\ ``Transformation through reeducation'' can also apply to non-
Falun Gong groups that authorities have designated as ``cult'' 
organizations. For example, a government document from a town in 
Weng'an county, Qiannan Buyi and Miao Autonomous Prefecture, Guizhou 
province, calls on authorities to ``transform'' followers of the 
Disciples Sect (Mentuhui), an indigenous Chinese sect that appears on a 
list of Chinese government and Party-designated ``cults'' issued by the 
Ministry of Public Security in 2000. Ministry of Public Security, ``The 
Situation of Organizations Already Recognized as Cults'' [Xianyi 
rending de xiejiao zuzhi qingkuang], reprinted in Zhengqi Net, 5 
February 07; Tianwen Town People's Government, ``Tianwen Town 2010-2012 
Transformation-Through-Reeducation Assault and Consolidation Overall 
Battle Work Plan,'' reprinted in Weng'an County People's Government, 5 
May 10. For a recent example of the ``cult'' designation applied to 
non-Falun Gong practitioners, see ChinaAid, ``Henan Police Unlawfully 
Fine, Sentence Believers to Labor Camps,'' 9 April 10; Verna Yu, 
``Christians Held To Extort Cash, Say Wife, Lawyer,'' South China 
Morning Post, 29 June 10; ChinaAid, ``Christians in Shangqiu, Henan, 
Including Gao Jianli, Bring Suit Against RTL Committee, Rejected'' 
[Henan shangqiu jidu tu gao jianli deng su laojiao wei bei bohui], 3 
August 10; ``Members of Henan House Church Ordered To Serve Reeducation 
Through Labor,'' CECC Human Rights and Rule of Law Update, No. 8, 9 
November 2010, 3.
    \64\ The China Anti-Cult Association has identified these three 
kinds of facilities as the ``main front'' in the effort to 
``transform'' Falun Gong practitioners. Xiang Yang, China Anti-Cult 
Association, ``Prepare Basic Thinking on Transformation-Through-
Reeducation Assault and Consolidation Overall Battle'' [Dahao jiaoyu 
zhuanhua gongjian yu gonggu zhengti zhang de jiben sikao], 5 August 10.
    \65\ The 11 Falun Gong practitioners detained are Xin Xiumin, Ning 
Shumei, Gao Shuxian, Wang Xiling, Bao Zhenjiang, Luo Lingmei, Zhu 
Fengqi, Zhang Yulan, Shen Hai, Gao Cun, and Fang Xiuying.
    \66\ ``Twenty-Four Falun Gong Practitioners From Laishui County, 
Hebei Province, Have Been Taken to CCP Brainwashing Centers'' [Hebei 
laishui xian 24 ming falungong xueyuan bei bangru dangxiao xinao], 
Clear Wisdom, 24 September 10; ``Twenty-Four Falun Gong Practitioners 
From Laishui County, Hebei Province, Have Been Taken to CCP 
Brainwashing Centers,'' Clear Wisdom, 30 September 10. Some sources use 
the term ``brainwashing'' to refer to ``transformation through 
reeducation.''
    \67\ ``Having Accused Those Responsible for Violating His Daughter, 
the Father of Hu Miaomiao Is Kidnapped'' [Konggao qinhai nu'er de 
zuifan, hu miaomiao fuqin bei jiechi], Clear Wisdom, 1 March 11; ``Mr. 
Hu Mingliang Arrested After Suing the Labor Camp Where His Daughter Ms. 
Hu Miaomiao Was Sexually Abused,'' Clear Wisdom, 4 March 11; ``Seeking 
Justice for His Daughter, Hu Miaomiao's Father Is Illegally Detained'' 
[Wei nu'er tao gongdao, hu miaomiao fuqin bei feifa guanya], Clear 
Wisdom, 14 March 11.
    \68\ ``Having Suffered Sexual Assault in Reeducation Through Labor 
Center, Girl Cannot Stand Upright or Walk'' [Zao laojiao suo xing 
cuican, nuhai bu neng zhili xingzou], Clear Wisdom, 4 November 10; 
Falun Dafa Information Center, ``Urgent Appeal: 25-Year-Old Woman 
Unable To Walk From Sexual Abuse in Hebei Labor Camp,'' 14 November 10.
    \69\ Tania Branigan, ``Fears Grow After Chinese Human Rights Lawyer 
Detained,'' Guardian, 18 February 11; Chinese Human Rights Defenders, 
``CHRD Condemns Preemptive Strikes Against Protests,'' 21 February 11.
    \70\ ``Human Rights Lawyers Threatened and Jailed,'' AsiaNews, 31 
December 10; Ye Bing, ``Beijing Rights Defense Lawyers Tang Jitian and 
Liu Wei Faced With Losing Their Licenses'' [Weiquan lushi tang jitian 
liu wei mianlin diaoxiao zhizhao chufa], Voice of America, 14 April 10.
    \71\ ``Concern Over Rights Lawyer,'' Radio Free Asia, 13 April 11; 
Verna Yu, ``Rights Lawyers Free After Being Held in Crackdown,'' South 
China Morning Post, 21 April 11.
    \72\ General Office of the Ningdu County People's Government, 
``Ningdu County Sanitation System 2010-2012 Transformation-Through-
Reeducation Assault and Consolidation Overall Battle Work Plan'' 
[Ningdu xian weisheng xitong 2010-2012 nian jiaoyu zhuanhua gongjian yu 
gonggu zhengti zhang gongzuo fang'an], reprinted in Ningdu County 
People's Government, 18 March 10; ``Yang Sisong Attends City-Wide 
Mobilization and Deployment Meeting on Work To Defend Against and 
Handle Cults and the Transformation-Through-Reeducation Assault and 
Consolidation Overall Battle'' [Yang sisong canjia quanshi fangfan he 
chuli xiejiao gongzuo ji jiaoyu zhuanhua gongjian yu gonggu zhengti 
zhang dongyuan bushu dahui], Hefei Daily, reprinted in Hefei Municipal 
People's Government, 1 April 10; Longbu Town Party Committee, ``Longbu 
Town 2010-2012 Transformation-Through-Reeducation Assault and 
Consolidation Overall Battle Work Plan'' [Longbu zhen 2010-2012 nian 
jiaoyu zhuanhua gongjian yu gonggu zhengti zhang gongzuo fang'an], 
reprinted in Anyuan County People's Government, 2 April 10; Jiyuan 
Municipal Bureau of Industry and Information Technology, ``Regarding 
Launching the 2010-2012 Jiyuan City Transformation-Through-Reeducation 
Assault and Consolidation Overall Battle Work'' [Quansheng laojiao 
xitong jiaoyu zhuanhua ``xin san nian gongjian gonggu zhengti zhang'' 
dongyuan bushu hui zai sheng nu suo zhaokai], reprinted in Jiyuan 
Municipal People's Government, 6 April 10; Binhu Township Party and 
Government General Office, ``Binhu Township 2010-2012 Transformation-
Through-Reeducation Assault and Consolidation Overall Battle Work 
Plan'' [Binhu xiang 2010-2012 jiaoyu zhuanhua gongjian yu gonggu 
zhengti zhang gongzuo fang'an], reprinted in Changji Municipal People's 
Government, 13 April 10; Chengxi Town Party Committee, ``Chengxi Town 
2010-2012 Transformation-Through-Reeducation Assault and Consolidation 
Plan'' [Chengxi zhen 2010 zhi 2012 nian jiaoyu zhuanhua gongjian yu 
gonggu fang'an], reprinted in Guoyang County People's Government, 13 
April 10; General Office of the Ruichang Municipal People's Government, 
``Hongxia Township 2010-2012 Transformation-Through-Reeducation Assault 
and Consolidation Overall Battle Work Plan'' [Hongxia xiang 2010-2012 
nian jiaoyu zhuanhua gongjian yu gonggu zhengti zhang gongzuo fang'an], 
reprinted in Ruichang Municipal People's Government, 26 April 10; 
Tianwen Town People's Government, ``Tianwen Town 2010-2012 
Transformation-Through-Reeducation Assault and Consolidation Overall 
Battle Work Plan'' [Tianwen zhen 2010-2012 nian jiaoyu zhuanhua 
gongjian yu gonggu zhengti zhang gongzuo fang'an], reprinted in Weng'an 
County People's Government, 5 May 10; Jiangxi Provincial Reeducation 
Through Labor Administration Bureau, ``Provincial Reeducation Through 
Labor System Mobilization and Deployment Meeting on Transformation-
Through-Reeducation `New Three-Year Assault and Consolidation Overall 
Battle' Convenes at Provincial Women's Reeducation Through Labor 
Center'' [Quansheng laojiao xitong jiaoyu zhuanhua ``xin san nian 
gongjian gonggu zhengti zhang'' dongyuan bushu hui zai sheng nu suo 
zhaokai], 13 June 10; Gulou District People's Government, ``Kaiyuan 
Community 2010-2012 Transformation-Through-Reeducation Assault and 
Consolidation Overall Battle Work Implementation Plan'' [Kaiyuan shequ 
2010-2012 nian jiaoyu zhuanhua gongjian yu gonggu zhengti zhang gongzuo 
shishi fang'an], 27 June 10; Longnan County Bureau of Industry and 
Information Technology, ``County Industry and Information Bureau 
Establishing, Synthesizing, and Maintaining Stability Work Summary for 
the First Half of 2010'' [Xian gongxin ju 2010 nian shang ban nian 
chuangjian, zongzhi, weiwen gongzuo zongjie], reprinted in Longnan 
County People's Government, 30 June 10; Xiang Yang, China Anti-Cult 
Association, ``Prepare Basic Thinking on Transformation-Through-
Reeducation Assault and Consolidation Overall Battle'' [Dahao jiaoyu 
zhuanhua gongjian yu gonggu zhengti zhang de jiben sikao], 5 August 10; 
China Anti-Cult Association, ``Suxian District, Chenzhou City, Hunan 
Province, Implements Shingle-Hanging Transformation as Shining Tactic 
in Three-Year Assault and Consolidation Overall Battle'' [Hunan sheng 
chenzhou shi suxian qu shishi guapai zhuanhua wei san nian gongjian yu 
gonggu zhengti zhang liang shizhao], 6 August 10; Hepu County Water 
Bureau, ``Hepu County Water Bureau Party Committee's 2010-2012 
Transformation-Through-Reeducation Assault and Consolidation Overall 
Battle Work Plan'' [Zhonggong hepu xian shuili ju weiyuan hui 2010-2012 
nian jiaoyu zhuanhua gongjian yu gonggu zhengti zhang gongzuo fang'an], 
last visited 23 November 10. For more information on the campaign, see 
``Communist Party Calls for Increased Efforts To `Transform' Falun Gong 
Practitioners as Part of Three-Year Campaign,'' Congressional-Executive 
Commission on China, 22 March 11.
    \73\ Jiyuan Municipal Bureau of Industry and Information 
Technology, ``Implementation Plan Regarding Launching the 2010-2012 
Jiyuan City Transformation-Through-Reeducation Assault and 
Consolidation Overall Battle Work'' [Guanyu kaizhan 2010-2012 nian 
jiyuan shi jiaoyu zhuanhua gongjian yu gonggu zhengti zhang gongzuo 
shishi fang'an], reprinted in Jiyuan Municipal People's Government, 6 
April 10; Binhu Township Party and Government General Office, ``Binhu 
Township 2010-2012 Transformation-Through-Reeducation Assault and 
Consolidation Overall Battle Work Plan'' [Binhu xiang 2010-2012 jiaoyu 
zhuanhua gongjian yu gonggu zhengti zhang gongzuo fang'an], reprinted 
in Changji Municipal People's Government, 13 April 10; Chengxi Town 
Party Committee, ``Chengxi Town 2010-2012 Transformation-Through-
Reeducation Assault and Consolidation Plan'' [Chengxi zhen 2010 zhi 
2012 nian jiaoyu zhuanhua gongjian yu gonggu fang'an], reprinted in 
Guoyang County People's Government, 13 April 10; Hepu County Water 
Bureau, ``Hepu County Water Bureau Party Committee's 2010-2012 
Transformation-Through-Reeducation Assault and Consolidation Overall 
Battle Work Plan'' [Zhonggong hepu xian shuili ju weiyuan hui 2010-2012 
nian jiaoyu zhuanhua gongjian yu gonggu zhengti zhang gongzuo fang'an], 
last visited 23 November 10.
    \74\ See, e.g., Chengxi Town Party Committee, ``Chengxi Town 2010-
2012 Transformation-Through-Reeducation Assault and Consolidation 
Plan'' [Chengxi zhen 2010 zhi 2012 nian jiaoyu zhuanhua gongjian yu 
gonggu fang'an], reprinted in Guoyang County People's Government, 13 
April 10; General Office of the Ruichang Municipal People's Government, 
``Hongxia Township 2010-2012 Transformation-Through-Reeducation Assault 
and Consolidation Overall Battle Work Plan'' [Hongxia xiang 2010-2012 
nian jiaoyu zhuanhua gongjian yu gonggu zhengti zhang gongzuo fang'an], 
reprinted in Ruichang Municipal People's Government, 26 April 10.
    \75\ Longnan County Bureau of Industry and Information Technology, 
``County Industry and Information Bureau Establishing, Synthesizing, 
and Maintaining Stability Work Summary for the First Half of 2010'' 
[Xian gongxin ju 2010 nian shang ban nian chuangjian, zongzhi, weiwen 
gongzuo zongjie], reprinted in Longnan County People's Government, 30 
June 10; Xiang Yang, China Anti-Cult Association, ``Prepare Basic 
Thinking on Transformation-Through-Reeducation Assault and 
Consolidation Overall Battle'' [Dahao jiaoyu zhuanhua gongjian yu 
gonggu zhengti zhang de jiben sikao], 5 August 10; Hepu County Water 
Bureau, ``Hepu County Water Bureau Party Committee's 2010-2012 
Transformation-Through-Reeducation Assault and Consolidation Overall 
Battle Work Plan'' [Zhonggong hepu xian shuili ju weiyuan hui 2010-2012 
nian jiaoyu zhuanhua gongjian yu gonggu zhengti zhang gongzuo fang'an], 
last visited 23 November 10.
    \76\ Xiang Yang, China Anti-Cult Association, ``Prepare Basic 
Thinking on Transformation-Through-Reeducation Assault and 
Consolidation Overall Battle'' [Dahao jiaoyu zhuanhua gongjian yu 
gonggu zhengti zhang de jiben sikao], 5 August 10.
    \77\ General Office of the Ningdu County People's Government, 
``Ningdu County Sanitation System 2010-2012 Transformation-Through-
Reeducation Assault and Consolidation Overall Battle Work Plan'' 
[Ningdu xian weisheng xitong 2010-2012 nian jiaoyu zhuanhua gongjian yu 
gonggu zhengti zhang gongzuo fang'an], reprinted in Ningdu County 
People's Government, 18 March 10; Longbu Town Party Committee, ``Longbu 
Town 2010-2012 Transformation-Through-Reeducation Assault and 
Consolidation Overall Battle Work Plan'' [Longbu zhen 2010-2012 nian 
jiaoyu zhuanhua gongjian yu gonggu zhengti zhang gongzuo fang'an de 
tongzhi], reprinted in Anyuan County People's Government, 2 April 10; 
Chengxi Town Party Committee, ``Chengxi Town 2010-2012 Transformation-
Through-Reeducation Assault and Consolidation Plan'' [Chengxi zhen 2010 
zhi 2012 nian jiaoyu zhuanhua gongjian yu gonggu fang'an], reprinted in 
Guoyang County People's Government, 13 April 10.
    \78\ Xiang Yang, China Anti-Cult Association, ``Prepare Basic 
Thinking on Transformation-Through-Reeducation Assault and 
Consolidation Overall Battle'' [Dahao jiaoyu zhuanhua gongjian yu 
gonggu zhengti zhang de jiben sikao], 5 August 10.
    \79\ Ibid.
    \80\ Jiyuan Municipal Bureau of Industry and Information 
Technology, ``Implementation Plan Regarding Launching the 2010-2012 
Jiyuan City Transformation-Through-Reeducation Assault and 
Consolidation Overall Battle Work'' [Guanyu kaizhan 2010-2012 nian 
jiyuan shi jiaoyu zhuanhua gongjian yu gonggu zhengti zhang gongzuo 
shishi fang'an], reprinted in Jiyuan Municipal People's Government, 6 
April 10.
    \81\ General Office of the Ruichang Municipal People's Government, 
``Hongxia Township 2010-2012 Transformation-Through-Reeducation Assault 
and Consolidation Overall Battle Work Plan'' [Hongxia xiang 2010-2012 
nian jiaoyu zhuanhua gongjian yu gonggu zhengti zhang gongzuo fang'an], 
reprinted in Ruichang Municipal People's Government, 26 April 10.
    \82\ Tianwen Town People's Government, ``Tianwen Town 2010-2012 
Transformation-Through-Reeducation Assault and Consolidation Overall 
Battle Work Plan'' [Tianwen zhen 2010-2012 nian jiaoyu zhuanhua 
gongjian yu gonggu zhengti zhang gongzuo fang'an], reprinted in Weng'an 
County People's Government, 5 May 10.
    \83\ Jiyuan Municipal Bureau of Industry and Information 
Technology, ``Implementation Plan Regarding Launching the 2010-2012 
Jiyuan City Transformation-Through-Reeducation Assault and 
Consolidation Overall Battle Work'' [Guanyu kaizhan 2010-2012 nian 
jiyuan shi jiaoyu zhuanhua gongjian yu gonggu zhengti zhang gongzuo 
shishi fang'an], reprinted in Jiyuan Municipal People's Government, 6 
April 10.
    \84\ General Office of the Ningdu County People's Government, 
``Ningdu County Sanitation System 2010-2012 Transformation-Through-
Reeducation Assault and Consolidation Overall Battle Work Plan'' 
[Ningdu xian weisheng xitong 2010-2012 nian jiaoyu zhuanhua gongjian yu 
gonggu zhengti zhang gongzuo fang'an], reprinted in Ningdu County 
People's Government, 18 March 10; Longbu Town Party Committee, ``Longbu 
Town 2010-2012 Transformation-Through-Reeducation Assault and 
Consolidation Overall Battle Work Plan'' [Longbu zhen 2010-2012 nian 
jiaoyu zhuanhua gongjian yu gonggu zhengti zhang gongzuo fang'an], 
reprinted in Anyuan County People's Government, 2 April 10; Binhu 
Township Party and Government General Office, ``Binhu Township 2010-
2012 Transformation-Through-Reeducation Assault and Consolidation 
Overall Battle Work Plan'' [Binhu xiang 2010-2012 jiaoyu zhuanhua 
gongjian yu gonggu zhengti zhang gongzuo fang'an], reprinted in Changji 
Municipal People's Government, 13 April 10.
    \85\ See, e.g., Panyu District Judicial Bureau, ``Donghuan Street 
Law Promulgation Office Holds `Oppose Cults, Promote Harmony, Welcome 
the Asian Games, Prohibit Drugs, Protect Minors' Knowledge 
Competition'' [Donghuan jie pufa ban juxing `fan xiejiao, cu hexie, 
ying yayun, jin du, baohu weichengnian ren' zhishi jingsai], 1 November 
10; Tianshan District Bureau of Science and Technology, `` `Oppose 
Cults, Promote Harmony, Welcome the Asian Games' Propaganda Education, 
Propaganda Education Topic Number One: What Is a Cult? '' [``Fan 
xiejiao, cu hexie, ying yayun'' xuanchuan jiaoyu xuanchuan jiaoyu 
zhuanti zhi yi: shenme shi xiejiao?], 28 September 10.
    \86\ ``Guangzhou Lawyer Zhu Yubiao Framed for Using Cult To 
Undermine Implementation of the Law'' [Guangzhou zhu yubiao lushi bei 
gouxian liyong xiejiao pohuai falu shishi], Canyu, reprinted in Boxun, 
10 September 10; ``Defense Lawyer for Falun Gong Jailed for Second 
Offense, Raids Performed in Anticipation of Guangzhou's Asian Games'' 
[Wei falun gong bianhu lushi er jin gong, guangzhou yayun qingchang 
shangmen soubu], Radio Free Asia, 5 October 10.
    \87\ PRC Criminal Law [Zhonghua renmin gongheguo xingfa], enacted 1 
July 79, amended 14 March 97, effective 1 October 97, amended 25 
December 99, 31 August 01, 29 December 01, 28 December 02, 28 February 
05, 29 June 06, 28 February 09, art. 300.
    \88\ ``Defense Lawyer for Falun Gong Jailed for Second Offense, 
Raids Performed in Anticipation of Guangzhou's Asian Games'' [Wei falun 
gong bianhu lushi er jin gong, guangzhou yayun qingchang shangmen 
soubu], Radio Free Asia, 5 October 10.
    \89\ ``Materials Framing [Zhu] Having Been Rejected, Zhu Yubiao Is 
Still Kidnapped'' [Gouxian cailiao bei tuihui, zhu yubiao lushi reng 
bei jiechi], Clear Wisdom, 7 March 11.
    \90\ Guangzhou Municipal People's Government, ``Proactively Launch 
Management of the Electromagnetic Environment, Ensure Free Flow and 
Safety for Information During Asian Games'' [Jiji kaizhan dianci 
huanjing zhili, quebao yayun xinxi changtong he anquan], 10 November 
10.
    \91\ State Administration for Religious Affairs, ``Bureau Head Wang 
Zuo'an Attends Summary Meeting for 10th-Year Anniversary of Islamic 
Scripture Interpretation Work and Gives Speech'' [Wang zuo'an juzhang 
chuxi yisilanjiao jiejing gongzuo shi zhou nian zongjie dahui bing 
jianghua], 4 May 11.
    \92\ State Administration for Religious Affairs, ``Main Points of 
State Administration for Religious Affairs' 2011 Work'' [Guojia 
zongjiao shiwu ju 2011 nian gongzuo yaodian], 24 January 11.
    \93\ ``Our Country To Further Draft and Revise Accompanying 
Measures to `Regulations on Religious Affairs' '' [Woguo jiang jinyibu 
zhiding he xiuding ``zongjiao shiwu tiaoli'' peitao banfa], Xinhua, 
reprinted in State Administration for Religious Affairs, 10 January 11.
    \94\ Regulations on Religious Affairs [Zongjiao shiwu tiaoli], 
issued 30 November 04, effective 1 March 05, arts. 11, 43; Measures 
Regarding Chinese Muslims Signing Up To Go Abroad on Pilgrimages (Trial 
Measures) [Zhongguo musilin chuguo chaojin baoming paidui banfa 
(shixing)], issued 16 June 05; Islamic Association of China, ed., 
Practical Pilgrimage Handbook for Chinese Muslims [Zhongguo musilin 
chaojin shiyong shouce], (Ningxia: Ningxia People's Press, 2005).
    \95\ Regulations on Religious Affairs [Zongjiao shiwu tiaoli], 
issued 30 November 04, effective 1 March 05, art. 11.
    \96\ Islamic Association of China, ed., Practical Pilgrimage 
Handbook for Chinese Muslims [Zhongguo musilin chaojin shiyong shouce], 
(Ningxia: Ningxia People's Press, 2005), 106-7, 120-21.
    \97\ Islamic Association of China, ``2010 Training Class for Hajj 
Leader Personnel and Imams Opens in Lanzhou'' [2010 niandu chaojin 
daidui renyuan, daidui yimamu peixunban zai lanzhou juxing], 10 October 
10.
    \98\ See examples that follow as well as, e.g., Lan Congshan, 
Shaoyang City Ethnic and Religious Affairs Commission, ``Discussion on 
Problems and Countermeasures in Extant Problems in Managing Religious 
Affairs in Accordance With Law'' [Qianlun yifa guanli zongjiao shiwu 
zhong cunzai de wenti yu duice], reprinted in Hunan Religious Affairs 
Bureau, 22 October 10; Tongxin County People's Political Consultative 
Conference Office, ``People's Political Consultative Conference Work 
Report'' [Zhengxie gongzuo baogao], reprinted in Tongxin County 
People's Government, 6 January 11.
    \99\ Xiao Hong, Dawukou District People's Government, ``Changcheng 
Neighborhood Committee Office News on Ethnicity and Religion'' 
[Changcheng jiedao banshichu minzu zongjiao xinxi], 19 September 10.
    \100\ Taojiang County Islamic Association, ``Carry Out Activities 
in Accordance With Laws and Stipulations, Strive To Create Harmonious 
Model Mosques'' [Yifa yigui kaizhan huodong nuli chuangjian hexie mofan 
qingzhensi], reprinted in Hunan Religious Affairs Bureau, 11 November 
10.
    \101\ Changde City People's Government, ``City Ethnic and Religious 
Affairs Bureau: Create Satisfied Mechanisms, Adhere to Service, Promote 
Development, Demand Stability'' [Shi minzu zongjiao shiwuju: chuang 
manyi jiguan yi fuwu cu fazhan qiu wending], 22 December 10.
    \102\ Huangpu District Ethnic and Religious Affairs Bureau, 
``Ethnic and Religious Affairs Bureau Summary of 2010 Emergency Work 
and 2011 Work Plan'' [Minzongju 2010 nian yingji gongzuo zongjie 2011 
nian gongzuo jihua], reprinted in Huangpu District People's Government, 
25 November 10.
    \103\ The 2010 Blue Book of Religions, published by the Chinese 
Academy of Social Sciences, estimates that there are over 23 million 
Protestants in China and 55,000 sites of worship, including 
approximately 24,000 churches and 31,000 ``gathering sites'' (juhui 
dian). `` `Annual Report on China's Religiions (2010),' Report on 
China's Census of Protestants'' [``Zhongguo zongjiao baogao 2010'' 
zhongguo jidu jiao ruhu wenjuan diaocha baogao], in Blue Book of 
Religions: Annual Report on China's Religions (2010), Institute of 
World Religions, Chinese Academy of Social Sciences (August 2010), 
article reprinted in State Administration for Religious Affairs, 18 
August 10; Li Guang, ``Religion White Paper Announces Over 55,000 
Churches'' [Zongjiao baipishu gongbu you 55000 yu tangdian], Phoenix 
Weekly, 15 October 10, 50. Estimates from official Chinese sources 
often do not include Protestants who worship outside of the state-
controlled church, and the 23 million figure likely does not reflect 
the size of China's unregistered Protestant community. In an interview 
with the BBC, Wang Zuo'an, director of China's State Administration for 
Religious Affairs, reportedly told a journalist that at least 20 
million Protestants worship in China's state-controlled church. 
Christopher Landau, ``China Invests in Confident Christians,'' BBC, 23 
August 10.
    \104\ Many of the estimates that fall in the 50-70 million range 
appear to stem from numbers published by the Pew Research Center. See, 
e.g., Brian Grim, Pew Research Center, ``Religion in China on the Eve 
of the 2008 Beijing Olympics,'' 7 May 08; Michael Gerson, ``A Founding 
Document for a New China,'' Washington Post, 12 May 11; Stephanie 
Samuel, ``Chinese House Churches Petition for Religious Freedom,'' 
Christian Post, 9 May 11. Some other sources appear to have arrived at 
these numbers independently. See, e.g., Rodney Stark et al., ``Counting 
China's Christians,'' First Things, 1 May 11; Verna Yu, ``Test of 
Faith,'' South China Morning Post, 8 May 11.
    \105\ For example, Yu Jianrong of the Rural Development Institute 
of the Chinese Academy of Social Sciences estimates that there are 
between 45 and 60 million unregistered Protestants in China. Yu 
Jianrong, China Institute of Strategy and Management, ``Yu Jianrong: 
Research on the Legalization of China's Protestant House Churches'' [Yu 
jianrong: zhongguo jidu jiao jiating jiaohui hefahua yanjiu], 2010. 
Based on information collected among Christians in China, a 2010 study 
by Asia Harvest--an inter-denominational Christian ministry that works 
in various countries throughout Asia--estimates that there are 
approximately 103 million Christians in China, although this figure 
likely includes both Protestants and Catholics. [See Catholicism in 
this section for more information on the size of China's Catholic 
community.] Paul Hattaway and Joy Hattaway, Asia Harvest, ``Answering 
the Question: How Many Christians Are in China Today? '' Asia Harvest 
Newsletter, No. 106, October 2010. The South China Morning Post 
estimates that the number of unregistered Protestants could be as high 
as 120 million. Nicola Davidson, ``Suspension of Disbelief,'' South 
China Morning Post, 7 November 10.
    \106\ PRC Constitution, adopted 4 December 82, amended 12 April 88, 
29 March 93, 15 March 99, 14 March 04, art. 36.
    \107\ The term in Chinese is shenxue sixiang jianshe. See, e.g., Du 
Qinglin, ``Du Qinglin: Remarks at the Chinese Protestant Three-Self 
Patriotic Movement's 60th Anniversary Celebration'' [Du qinglin: zai 
zhongguo jidu jiao sanzi aiguo yundong 60 zhounian qingzhu dahui shang 
de jiang hua], China Religion, 8 November 10; State Administration for 
Religious Affairs, ``Vice Director Jiang Jianyong Attends Amity 
Foundation's 25th Anniversary and Speaks at the Ceremony To Celebrate 
the Printing of 80 Million Bibles'' [Jiang jiangyong fu juzhang chuxi 
aide jijinhui chengli ershiwu zhounian qingdian bing zai yinshua 
shengjing baqianwan ce qingdian yishi shang zhici], 10 November 10; 
Yang Xuelian, China Christian Council and Three-Self Patriotic 
Movement, ``Hebei Provincial China Christian Council and Three-Self 
Patriotic Movement Hold `Harmonious Outlook' Theological Reconstruction 
Conference'' [Hebei sheng jidu jiao liang hui juban ``hexie guan'' 
shenxue sixiang jianshe yantaohui], 9 December 10; Qingdao Municipal 
Three-Self Patriotic Movement and Qingdao Municipal China Christian 
Council, ``Qingdao Municipal Christian Council and Three-Self Patriotic 
Movement Hold Theological Reconstruction Conference'' [Qingdao shi jidu 
jiao liang hui juxing shenxue sixiang jianshe yantaohui], reprinted in 
China Christian Council and Three-Self Patriotic Movement, 15 December 
10. For more information on theological reconstruction, see CECC, 2009 
Annual Report, 10 October 09, 132-35; ``Official Protestant Church 
Politicizes Pastoral Training, `Reconstructs' Theology,'' CECC China 
Human Rights and Rule of Law Update, No. 3, 16 March 10, 2.
    \108\ The charters of the TSPM and CCC list among each 
organization's duties: ``Under the leadership of the Chinese Communist 
Party and the People's Government, to unite all the country's 
Protestants; to fervently love socialism and the motherland; to respect 
the country's Constitution, laws, regulations, and policies; [and] to 
proactively participate in the construction of a socialist society with 
Chinese characteristics.'' Three-Self Patriotic Movement, Charter of 
the National Committee of Three-Self Patriotic Movement of the 
Protestant Churches in China [Zhongguo jidu jiao sanzi aiguo yundong 
weiyuanhui zhangcheng], passed 12 January 08, art. 6(1); China 
Christian Council, Charter of the China Christian Council [Zhongguo 
jidu jiao xiehui zhangcheng], passed 12 January 08, art. 7(1).
    \109\ Nicola Davison, ``Suspension of Disbelief,'' South China 
Morning Post, 7 November 10.
    \110\ See, e.g., State Administration for Religious Affairs, ``Vice 
Director Jiang Jianyong Attends Amity Foundation's 25th Anniversary and 
Speaks at the Ceremony To Celebrate the Printing of 80 Million Bibles'' 
[Jiang jianyong fu juzhang chuxi aide jijinhui chengli ershiwu zhounian 
qingdian bing zai yinshua shengjing baqianwan ce qingdian yishi shang 
zhici], 10 November 10.
    \111\ See, e.g., Du Qinglin, ``Du Qinglin: Remarks at the Chinese 
Protestant Three-Self Patriotic Movement's 60th Anniversary 
Celebration'' [Du qinglin: zai zhongguo jidu jiao sanzi aiguo yundong 
60 zhounian qingzhu dahui shang de jiang hua], China Religion, 8 
November 10. The phrase that Du used is ``jidu jiao jin yi bu yu 
shehuizhuyi shehui xiang shiying.''
    \112\ State Administration for Religious Affairs, ``Main Points of 
State Administration for Religious Affairs' 2011 Work'' [Guojia 
zongjiao shiwu ju 2011 nian gongzuo yaodian], 24 January 11. A 2010 
article in China Religion, an official SARA publication, that 
summarizes the content of a meeting to discuss SARA's work in 2010 did 
not mention this policy, although a January 24, 2011, SARA report 
states that authorities did make efforts to ``guide'' unregistered 
Protestants to worship in state-controlled churches in 2010. ``Meeting 
on National Religious Work Held in Beijing'' [Quanguo zongjiao gongzuo 
huiyi zai jing juxing], China Religion, Issue 1, No. 122, 2010; State 
Administration for Religious Affairs, ``Report on the Situation of the 
State Administration for Religious Affairs' 2010 Work'' [Guojia 
zongjiao shiwu ju 2010 nian gongzuo qingkuang baogao], 24 January 11.
    \113\ ``House Churches Cannot Politicize Religion,'' Global Times, 
11 April 11; ``Editorial: Individual Churches Should Avoid Letting 
Themselves [Become] Politicized'' [Sheping: gebie jiaohui yao bimian 
rang ziji zhengzhihua], Global Times, 26 April 11.
    \114\ ``English Edition of Global Times Launched,'' China Daily, 20 
April 09.
    \115\ Universal Declaration of Human Rights, adopted and proclaimed 
by UN General Assembly resolution 217A (III) of 10 December 48, arts. 
18, 20.
    \116\ International Covenant on Civil and Political Rights, adopted 
by UN General Assembly resolution 2200A (XXI) of 16 December 66, entry 
into force 23 March 76, arts. 18, 21.
    \117\ See the RRA generally for provisions defining the scope of 
state control over various internal affairs of religious groups. For 
detailed analysis of specific articles, see, e.g., ``Zhejiang and Other 
Provincial Governments Issue New Religious Regulations,'' CECC China 
Human Rights and Rule of Law Update, June 2006, 9-10.
    \118\ For other examples, see ``Beijing Police Oppress 
Congregation, Targeted at He Depu'' [Zhendui he depu beijing jingfang 
daya jiaoyou juhui], Radio Free Asia, 31 January 11; ChinaAid, ``Anhui 
and Shandong Oppress House Church and Three-Self Patriotic Movement 
Church'' [Anhui shandong shengdan qijian bipo jiating jiaohui he sanzi 
jiaohui], 29 December 10; ChinaAid, ``Beijing Church Blocked by Police, 
Christians Taken Away'' [Beijing yi jiaohui bei jingcha zuzhi jidu tu 
bei daizou], 30 January 11; ChinaAid, ``More Reports of Christmas 
Persecutions of House Church Christians,'' 30 December 10; ChinaAid, 
``Police Detain Two House Church Pastors; Pastor Bike and Wife Under 
Informal House Arrest,'' 23 April 11; ``Jiangsu Pastor Placed Under 
Soft Detention, Money Stolen, Beaten; Head of House Church Forced To 
Travel'' [Jiangsu mushi zao ruanjin qiang qian ji ouda, jiating jiaohui 
huizhang bei qiangzhi luyou], 10 March 11; ``Yancheng Church, Jiangsu, 
Attacked While Worshiping, Officials Close Off Church'' [Jiangsu 
yancheng jiaohui chongbai zao chongji, guanfang fengsuo jiaotang], 
Radio Free Asia, 1 February 11; ``Government Interferes With Activities 
of House Church Networks in Late 2010 and 2011,'' Congressional-
Executive Commission on China, 1 July 11.
    \119\ See, e.g., ``Persecution Mounts Against the Church of 
Shouwang,'' AsiaNews, 16 May 11; ``Beijing Police Disperse House Church 
Easter Gathering'' [Beijing jingfang qusan shouwang jiaohui fuhuojie 
juhui], BBC, 24 April 11; Alexa Olesen, ``Beijing Police Halt 
Unapproved Church Service,'' Associated Press, reprinted in Yahoo!, 10 
April 11; Beijing Shouwang Church, ``Announcement of Beijing Shouwang 
Church Regarding the May 29 Outdoor Worship Service,'' reprinted in 
ChinaAid, 1 June 11; Beijing Shouwang Church, ``Beijing Shouwang Church 
Announcement on May 15th Outdoor Worship Service,'' reprinted in 
ChinaAid, 18 May 11; Beijing Shouwang Church, ``Beijing Shouwang Church 
May 22 Outdoor Worship Bulletin'' [Beijing shouwang jiaohui 5 yue 22 ri 
huwai jingbai tongbao], reprinted in ChinaAid, 24 May 11; Beijing 
Shouwang Church, ``Beijing Shouwang Church May 29 Outdoor Worship 
Bulletin'' [Beijing shouwang jiaohui 5 yue 29 ri huwai jingbai 
tongbao], reprinted in ChinaAid, 30 May 11; ChinaAid, ``500 Shouwang 
Church Christians Under House Arrest in Beijing on Easter Sunday, More 
Than 30 in Police Custody,'' 24 April 11; ChinaAid, ``At Least 31 
Members of Shouwang Church Taken Away This Morning'' [Jintian zaochen 
zhishao 31 ming shouwang jiaohui chengyuan bei zhuazou], 1 May 11; 
ChinaAid, ``Beijing Police Release Nearly All Shouwang Church 
Detainees, Pastor and Two Others Still in Custody,'' 11 April 11; 
ChinaAid, ``Latest Update--3: Beijing Shouwang Church May 8, 2011, 
Outdoor Worship Gathering Continues To Suffer Oppression'' [Zuixin 
dongtai--3: beijing shouwang jiaohui 2011 nian 5 yue 8 ri de huwai 
juhui jixu zaoshou bipo], 10 May 11; ChinaAid, ``Persecution of 
Shouwang Church Members Continues for Fifth Sunday,'' 8 May 11; 
ChinaAid, ``Week 6: Police Detain 20 Shouwang Church Members, Put 100 
Under House Arrest,'' 15 May 11; ``China Detains Protestant Shouwang 
Devotees,'' BBC, 24 April 11; Alexa Olesen, ``Underground Beijing 
Church Members Detained,'' Associated Press, reprinted in Yahoo!, 17 
April 11; ``Fears of New Crackdown as 160 Christians Held,'' South 
China Morning Post, 11 April 11; Jo Ling Kent, ``Church Officials: 
Chinese Authorities Block Easter Service in Beijing,'' CNN, 24 April 
11; Li Ya, ``Under Pressure, Beijing Shouwang Church Faces a Crisis'' 
[Zhong ya zhi xia, beijing shouwang jiaohui mianlin xin weiji], Voice 
of America, 6 June 11; Louisa Lim, ``China Cracks Down on Christians at 
Outdoor Service,'' National Public Radio, 11 April 11; Nicola Davidson, 
``Chinese Christianity Will Not Be Crushed,'' Guardian, 24 May 11; P. 
Simpson, ``Several Hundred Chinese Protestants Under Home Confinement 
on Easter, 40 People Detained'' [Shu bai zhongguo jidu tu fuhuojie zao 
ruanjin 40 ren bei ju], Voice of America, 24 April 11; Verna Yu, ``Four 
Leaders Go in Church Split,'' South China Morning Post, 6 June 11; 
Verna Yu, ``Police Round Up 27 Christians,'' South China Morning Post, 
23 May 11; Verna Yu, ``Police Round Up Pastors, Christians for a Second 
Time,'' South China Morning Post, 18 April 11; Yan Yan, ``Beijing 
Police Take Away Over 100 Underground Church Believers'' [Beijing 
jingfang daizou 100 duo ming dixia jiaohui xintu], Deutsche Welle, 11 
April 11; Wang Zhicheng, ``More Arrests, More Persecution for Shouwang 
Underground Christians,'' AsiaNews, 9 May 11; Zhang Nan, ``Beijing 
Shouwang Church Members Detained Again'' [Beijing shouwang jiaohui 
chengyuan zai zao kouya], Voice of America, 1 May 11; ``Beijing 
Authorities Harass, Detain, and Restrict the Freedom of Movement of 
Shouwang Church Members,'' Congressional-Executive Commission on China, 
1 July 11.
    \120\ Chris Buckley and Sui-Lee Wee, ``Beijing Church Faces 
Eviction in Tense Times,'' Reuters, 3 April 11.
    \121\ Beijing Shouwang Church, ``An Explanation of the Issue of 
Worshiping Outside'' [Huwai jingbai wenti jieda], 4 April 11; Beijing 
Shouwang Church, ``Beijing Shouwang Church March 2011 Open Letter to 
Congregation'' [Beijing shouwang jiaohui 11 nian 3 yue gao huizhong 
shu], 27 March 11; Chris Buckley and Sui-Lee Wee, ``Beijing Church 
Faces Eviction in Tense Times,'' Reuters, 3 April 11; Verna Yu, ``Fears 
of More Pressure on Underground Churches,'' South China Morning Post, 1 
April 11.
    \122\ ``Beijing Police Halt Unapproved Church Service,'' Associated 
Press, reprinted in Yahoo!, 10 April 11; ChinaAid, ``Beijing Police 
Release Nearly All Shouwang Church Detainees, Pastor and Two Others 
Still in Custody,'' 11 April 11; ``Fears of New Crackdown as 160 
Christians Held,'' South China Morning Post, 11 April 11; Louisa Lim, 
``China Cracks Down on Christians at Outdoor Service,'' National Public 
Radio, 11 April 11; Yan Yan, ``Beijing Police Take Away Over 100 
Underground Church Believers'' [Beijing jingfang daizou 100 duo ming 
dixia jiaohui xintu], Deutsche Welle, 11 April 11.
    \123\ ``36 Detained at Shouwang Church Outdoor Worship'' [Shouwang 
jiaohui huwai jingbai 36 ren bei bu], Radio Free Asia, 25 April 11; 
Brian Spegele, ``Beijing Police Detain Group of Christians,'' Wall 
Street Journal, 25 April 11; Jo Ling Kent, ``Church Officials: Chinese 
Authorities Block Easter Service in Beijing,'' CNN, 24 April 11; 
Michael Foust, ``4th Week: China Arrests 30 Church Members,'' Baptist 
Press, 2 May 11; U.S. Commission on International Religious Freedom, 
``Easter Detentions Show Need for Religious Freedom Priority in U.S.-
China Relations,'' 27 April 11.
    \124\ Alexa Olesen, ``Beijing Police Halt Unapproved Church 
Service,'' Associated Press, reprinted in Yahoo!, 10 April 11; Beijing 
Shouwang Church, ``Beijing Shouwang Church April 24 Easter Outdoor 
Worship Bulletin'' [Beijing shouwang jiaohui 4 yue 24 ri fuhuo jie 
huwai jingbai tongbao], 25 April 11; Liu Jianghe, ``Pastor Li Xiaobai 
of the Beijing Shouwang Church and His Wife Released, Still No Place To 
Go for Worship'' [Shouwang jiaohui li xiaobai mushi shifang, jingbai 
changsuo yiran wu zhuoluo], China Free Press, 13 April 11.
    \125\ Beijing Shouwang Church, ``Beijing Pastors' Joint Prayer 
Meeting Prays for Beijing Shouwang Church (4)'' [Beijing jiaomu liandao 
hui wei beijing shouwang jiao hui daidao (4)], reprinted in ChinaAid, 
29 April 11.
    \126\ ``49 Detained in Raid on China Underground Church,'' 
Associated Press, reprinted in Yahoo!, 11 May 11; ChinaAid, ``During 
the China-U.S. Strategic and Economic Dialogue, Chinese House Church 
Alliance Bible Study Attacked, 49 Detained'' [Zhongmei jingji zhanlue 
duihua qijian, zhonguo jiating jiaohui lianhe hui de shengjing peixun 
zao chongji, 49 bei zhuabu], 11 May 11; ``Korean Bible Instructor Held 
Following Raid on Underground Chinese Church Gathering,'' Associated 
Press, reprinted in Washington Post, 11 May 11; ``Multiple Members of 
Underground Church in Henan Detained at Once'' [Henan duo ming dixia 
jiaohui chengyuan yidu bei jubu], Deutsche Welle, 11 May 11; 
``Zhengzhou Public Security Attacks Church, Detains 49, Three Korean 
Pastors and Two People Pursued and Detained'' [Zhengzhou gong'an 
chongji jiaohui ju 49 ren, hanguo san mushi liang ren zao zhuyi juliu], 
Radio Free Asia, 11 May 11.
    \127\ ChinaAid, ``Police Detain Two House Church Pastors; Pastor 
Bike and Wife Under Informal House Arrest,'' 23 April 11; ChinaAid, 
``Police Surround a Shandong House Church, Detain Seven,'' 17 April 11; 
ChinaAid, ``Zaozhuang, Shandong House Church Leader Taken Into 
Custody'' [Shandong zaozhuang jiating jiaohui lingxiu bei zhua], 16 
April 11; ChinaAid, ``Zaozhuang, Shandong Province, House Church 
Oppressed (Update), Cangshan County Also Detaining Believers'' 
[Shandong sheng zaozhuang jiating jiaohui zaoshou bipo (gengxin), 
cangshan xian ye zai zhua xintu], 17 April 11; ``Seven Followers in 
Shandong, Even Car, Are Detained, Shaanxi Police Block Medical 
Treatment for Pastor After Beating Him'' [Shandong jiaotu qi ren lian 
che zao kouya, shaan jing da mushi hou geng zu jiuzhi], Radio Free 
Asia, 21 April 11.
    \128\ ``49 Detained in Raid on China Underground Church,'' 
Associated Press, reprinted in Yahoo!, 11 May 11; ChinaAid, ``During 
the China-U.S. Strategic and Economic Dialogue, Chinese House Church 
Alliance Bible Study Attacked, 49 Detained'' [Zhongmei jingji zhanlue 
duihua qijian, zhonguo jiating jiaohui lianhe hui de shengjing peixun 
zao chongji, 49 bei zhuabu], 11 May 11; ``Korean Bible Instructor Held 
Following Raid on Underground Chinese Church Gathering,'' Associated 
Press, reprinted in Washington Post, 11 May 11; ``Multiple Members of 
Underground Church in Henan Detained at Once'' [Henan duo ming dixia 
jiaohui chengyuan yidu bei jubu], Deutsche Welle, 11 May 11; 
``Zhengzhou Public Security Attacks Church, Detains 49, Three Korean 
Pastors and Two People Pursued and Detained'' [Zhengzhou gong'an 
chongji jiaohui ju 49 ren, hanguo san jiaoshi liang ren zao zhuyi 
juliu], Radio Free Asia, 11 May 11.
    \129\ ChinaAid, ``Update: 49 House Church Leaders Released,'' 11 
May 11.
    \130\ ChinaAid, ``All Believers Detained in the May 10 Zhengzhou 
Church Incident and May 22 Hubei Oppression Incident Released'' [5-10 
zhengzhou jiao an he 5-22 hubei bipo an bei guanya xintu quanbu 
huoshi], 26 May 11.
    \131\ ChinaAid, ``Police Detain Two House Church Pastors; Pastor 
Bike and Wife Under Informal House Arrest,'' 23 April 11; ``Jiangsu 
Pastor Placed Under Home Confinement, Money Stolen, Beaten; Head of 
House Church Forced To Travel'' [Jiangsu mushi zao ruanjin qiang qian 
ji ouda, jiating jiaohui huizhang bei qiangzhi luyou], Radio Free Asia, 
10 March 11.
    \132\ ChinaAid, ``Christians Persecuted in Henan and Jiangsu,'' 7 
March 11; ``Jiangsu Pastor Placed Under Home Confinement, Money Stolen, 
Beaten; Head of House Church Forced To Travel'' [Jiangsu mushi zao 
ruanjin qiang qian ji ouda, jiating jiaohui huizhang bei qiangzhi 
luyou], Radio Free Asia, 10 March 11.
    \133\ ChinaAid, ``Persecution of House Churches Continues, Pastor 
Shi Enhao Criminally Detained'' [Bipo jiating jiaohui jixu jinxing, shi 
enhao mushi zao xingshi juliu], 5 July 11. ``Using superstition to 
undermine the implementation of the law'' is similar to the language of 
Article 300 of the PRC Criminal Law. Article 300 also contains language 
about ``using a cult to undermine the implementation of the law,'' a 
charge commonly used against Falun Gong practitioners. PRC Criminal Law 
[Zhonghua renmin gongheguo xingfa], enacted 1 July 79, amended 14 March 
97, effective 1 October 97, amended 25 December 99, 31 August 01, 29 
December 01, 28 December 02, 28 February 05, 29 June 06, 28 February 
09, 25 February 11, art. 300.
    \134\ ``Pastor Sent to Labor Camp,'' Radio Free Asia, 26 July 11.
    \135\ ChinaAid, ``ChinaAid Pays Attention to the Chinese 
Representatives to the Lausanne Congress Being Oppressed'' [Duihua 
yuanzhu xiehui guanzhu luosang huiyi zhongguo jiaohui daibiao shoudao 
daya], 11 October 10; ``Underground Churches Banned From Attending 
Overseas Gospel Conference, Authorities Allege Conference Is Anti-
China, Five Taken Into Custody at Beijing Airport'' [Dixia jiaohui jin 
fu haiwai fuyin hui, dangju zhi dahui she fanhua, beijing jichang kou 5 
ren], Ming Pao, 11 October 10. For more information, see also ``Chinese 
Authorities Prevent Protestants From Attending International 
Evangelization Conference,'' CECC China Human Rights and Rule of Law 
Update, No. 9, 10 December 10, 2.
    \136\ State Administration for Religious Affairs, ``Main Points of 
State Administration for Religious Affairs' 2011 Work'' [Guojia 
zongjiao shiwu ju 2011 nian gongzuo yaodian], 24 January 11.
    \137\ Louisa Lim, ``Beijing Blocks Travelers to Christian 
Conference,'' National Public Radio, 14 October 10.
    \138\ ``Chinese Authorities Prohibit Many Human Rights Defenders 
From Leaving Country'' [Duo ming weiquan gongmin bei zhongguo dangju 
jinzhi chujing], Radio Free Asia, 3 August 10; ``Travel Bans for 
Activists,'' Radio Free Asia, 5 August 10.
    \139\ Fan is also a former researcher at the Chinese Academy of 
Social Sciences (CASS). In November 2009, the Party secretary at CASS 
reportedly told Fan he would not be permitted to continue working at 
CASS after Fan attempted to provide legal aid to the Linfen-Fushan 
Church. See, e.g., ChinaAid, ``Prominent Chinese Legal Researcher 
Abruptly Dismissed for `Political Reasons,' '' 3 November 09; CECC, 
2010 Annual Report, 10 October 10, 109-110.
    \140\ ChinaAid, ``Beijing Police Zero In on Holy Mountain 
Institute,'' 15 December 10; ``Chinese Authorities' Suppression of 
Civil Rights Activists Continues To Increase'' [Zhongguo dangju dui 
weiquan renshi daya buduan shengji], Radio Free Asia, 12 October 10. 
Fan reportedly has played an important role in promoting legal activism 
among members of house church congregations throughout China. See, 
e.g., ChinaAid, ``2010 Annual Report,'' 31 March 11, 3.
    \141\ ``Chinese Authorities' Suppression of Civil Rights Activists 
Continues To Increase'' [Zhongguo dangju dui weiquan renshi daya buduan 
shengji], Radio Free Asia, 12 October 10.
    \142\ ``Fan Yafeng, a Christian, Is Arrested, He Signed Charter 
08,'' AsiaNews, 26 November 10; ChinaAid, ``Detained Human Rights 
Lawyer Fan Yafeng Returns Home! '' 18 December 10; Verna Yu, ``Police 
Take Christian Leader, Family From Home,'' South China Morning Post, 26 
November 11.
    \143\ ChinaAid, ``Decision of the Xinjiang Uyghur Autonomous Region 
High People's Court: Rejects Christian Alimjan's Request for 
Reconsideration'' [Xinjiang weiwuer zizhi qu gaoji renmin fayuan de 
caiding shu: bohui jidu tu alimujiang de shensu], 3 March 11.
    \144\ ChinaAid, ``Seminar on Alimujiang's Case and Governance of 
the Law on Guarding State Secrets,'' 18 November 10.
    \145\ Ibid.
    \146\ Andrew Jacobs, ``Chinese Christians Rally Around Underground 
Church,'' New York Times, 12 May 11.
    \147\ Xie Moshan and Li Tianen, ``We Are [Doing This] for Faith: A 
Citizen Petition Letter to the National People's Congress With Respect 
to the Political Conflict'' [Women shi weile xinyang: wei zhengzhi 
chongtu zhi quanguo renda de gongmin qingyuan shu], reprinted in 
ChinaAid, 12 May 11.
    \148\ Ibid.
    \149\ ChinaAid, ``More Reports of Christmas Persecutions of House 
Church Christians,'' 30 December 10.
    \150\ ChinaAid, ``Even Government Churches Face Official 
Persecution: Local Authorities Demolish TSPM Church,'' 22 November 10.
    \151\ ChinaAid, ``Registered Church in Jiangsu Province Demolished, 
Christians Beaten,'' 22 December 08. For more information, see ``State-
Sanctioned Church in Jiangsu Province Demolished,'' Congressional-
Executive Commission on China, 20 January 11.
    \152\ The word ``Taoism'' and its derivatives are also often 
spelled with a ``D'' instead of a ``T,'' e.g., ``Daoism'' or 
``Daoist.''
    \153\ Chinese Taoist Association, ``Basic Rules on First Chinese 
Taoist College Scripture Study Class Seeking Students'' [Zhongguo 
daojiao xueyuan shou jie jingdian jiangxi ban zhao sheng jianzhang], 23 
November 10. The document lists this requirement first, ahead of 
``upholding the standards of Taoism.''
    \154\ See, e.g., State Administration for Religious Affairs, 
``Congratulatory Letter to All Taoists in the Country'' [Zhi quanguo 
daojiao jie de hexin], 19 March 11.
    \155\ Chinese Taoist Association, ``Chinese Taoist Association 
Leadership Meeting Convenes in Beijing'' [Zhongguo daojiao xiehui 
huizhang huiyi zai jing zhaokai], 14 March 11.
    \156\ Article 4 of the Chinese Taoist Association (CTA) 
Constitution says that the State Administration for Religious Affairs 
is the ``administrative unit in charge of'' the CTA. Constitution of 
the Chinese Taoist Association [Zhongguo daojiao xiehui zhangcheng], 
passed 22 June 10, art. 4.
    \157\ See, e.g., Gongan County Ethnic and Religious Affairs Bureau, 
``Proactively Lead, Manage According to Law'' [Jiji yindao, yi fa 
guanli], 11 May 11; Xu Yun, Suzhou Municipal Local Records Office, 
``The Situation of I-Kuan Tao in Suzhou'' [Yidaoguan zai suzhou de 
qingkuang], 6 December 10. The Commission has not observed official 
definitions of the terms ``feudal'' or ``superstitious'' in reference 
to Taoist religious practices. For example, the 1998 Measures Regarding 
the Management of Taoist Temples uses the term ``feudal, superstitious 
activities'' but does not elaborate on the meaning of the term. Chinese 
Taoist Association, Measures Regarding the Management of Taoist Temples 
[Guanyu daojiao gongguan guanli banfa], adopted 24 August 98, effective 
September 98, arts. 6(6), 7(3). In addition, in at least some cases, 
authorities have asserted a link between what they deem to be 
``feudal'' or ``superstitious'' religious activities and what they deem 
to be ``cult'' activities. See, e.g., State Administration for 
Religious Affairs, ``The Genesis of and Defense Against Cults'' 
[Xiejiao de chansheng yu fangfan], 28 October 05. Authorities have 
invoked the term ``cult'' as a basis for restrictions on the freedom of 
religion of members of a variety of religious groups in China, 
including Falun Gong, groups of Protestant origin, and groups of 
Buddhist and Taoist origin. See, e.g., ChinaAid, ``Henan Police 
Unlawfully Fine, Sentence Believers to Labor Camps,'' 9 April 10; 
Ministry of Public Security, ``The Situation of Organizations Currently 
Recognized as Cults'' [Xian yi rending de xiejiao zuzhi qingkuang], 
reprinted in Zhengqi Net, 5 February 07; Verna Yu, ``Christians Held To 
Extort Cash, Say Wife, Lawyer,'' South China Morning Post, 29 June 10; 
``Members of Henan House Church Ordered To Serve Reeducation Through 
Labor,'' CECC China Human Rights and Rule of Law Update, No. 8, 9 
November 10, 3; ``National Conferences Highlight Restrictions on 
Buddhist and Taoist Doctrine,'' CECC China Human Rights and Rule of Law 
Update, No. 8, 9 November 10, 4.
    \158\ Regulations on Religious Affairs [Zongjiao shiwu tiaoli], 
issued 30 November 04, effective 1 March 05, arts. 13-14, 24-25, 44.
    \159\ See, e.g., Ding Cai'an, Hunan Provincial Religious Affairs 
Bureau, ``Humble Remarks on the Current Situation of the Management of 
Folk Beliefs and Methods of Improvement'' [Minjian xinyang guanli 
xianzhuang yu gaijin fangfa de chuyi], 4 January 11; State 
Administration for Religious Affairs, ``Summary of the Fifth Five-Year 
Plan Awareness Promotion Work of the Nationwide Religious Work System'' 
[Quanguo zongjiao gongzuo xitong ``wu wu'' pufa gongzuo zongjie], 22 
March 11; Tongan County Party Committee, ``Tongan District Convenes 
Special Work Meeting on Stopping the Indiscriminate Construction of 
Temples and Open-Air Religious Statues'' [Tongan qu zhaokai zhizhi luan 
jian simiao he lutian zongjiao zaoxiang zhuanxiang gongzuo huiyi], 11 
April 11.
    \160\ See, e.g., Chinese Taoist Association, ``Luofushan, Guangdong 
To Hold Taoist Cutlural Festival, Pray for a Prosperous Asian Games in 
Guangzhou'' [Guangdong luofushan jiang juban daojiao wenhua jie, qifu 
guangzhou yayun], 17 October 10; Chinese Taoist Association, ``Three 
Hundred Volunteers To Serve at 2010 Guangdong Inaugural Taoist 
Festival'' [300 zhiyuanzhe jiang fuwu 2010 guangdong shou jie daojiao 
wenhua jie], 29 October 10; Chinese Taoist Association, ``Guangdong 
Taoist Cultural Festival Opens on November 2 in Luofushan, Huizhou 
City'' [Guangdong daojiao wenhua jie 11 yue 2 ri zai huizhou shi 
luofushan kaimu], 2 November 10; State Administration for Religious 
Affairs, ``Vice Director Jiang Jianyong Attends 2010 Guangdong Taoist 
Festival Opening Ceremony and Religious Assembly for Praying for 
Fortune for the Asian Games'' [Jiang jianyong fu juzhang chuxi 2010 
guangdong daojiao wenhua jie kaimushi ji qifu yayun da fahui], 4 
November 10.
    \161\ State Administration for Religious Affairs, ``Vice Director 
Jiang Jianyong Attends 2010 Guangdong Taoist Festival Opening Ceremony 
and Religious Assembly for Praying for Fortune for the Asian Games'' 
[Jiang jianyong fu juzhang chuxi 2010 guangdong daojiao wenhua jie 
kaimushi ji qifu yayun da fahui], 4 November 10.
    \162\ The revision removes a layer of approval and reporting 
previously required for religious schools to host foreign exchange 
students, bringing the regulation up to date with a 2004 directive that 
reduced administrative oversight in a variety of regulatory documents. 
State Administration for Religious Affairs Decree No. 9 [Guojia 
zongjiao shiwu ju ling di 9 hao], issued 29 November 10, effective 1 
January 11, citing State Council Decision Concerning Third Group of 
Items for Abolishing and Adjusting Administrative Examination and 
Approval [Guowuyuan guanyu di san pi quxiao he tiaozheng xingzheng 
shenpi xiangmu de jueding], issued 19 May 04; Detailed Implementing 
Rules for the Provisions on the Management of the Religious Activities 
of Foreigners Within the PRC [Zhonghua renmin gongheguo jingnei 
waiguoren zongjiao huodong guanli guiding shishi xize], issued 11 
August 00, art. 14.
    \163\ Detailed Implementing Rules for the Provisions on the 
Management of the Religious Activities of Foreigners Within the PRC 
[Zhonghua renmin gongheguo jingnei waiguoren zongjiao huodong guanli 
guiding shishi xize], issued 11 August 00, art. 17(2), (5), (7), (8).
    \164\ The Church of Jesus Christ of Latter-day Saints, ``Statement 
From the First Presidency,'' 30 August 10; The Church of Jesus Christ 
of Latter-day Saints, ``Church in Talks To `Regularize' Activities in 
China,'' 30 August 10.
    \165\ See, e.g., Department for External Church Relations of the 
Russian Orthodox Church, ``Talks on Russian-Chinese Relations in 
Religious Sphere Held in Beijing,'' 17 November 09; State 
Administration for Religious Affairs, ``Vice-Director Jiang Jianyong 
Sees Delegation From the Presidential Council for Cooperation With 
Religious Organization'' [Jiang jianyong fujuzhang huijian eluosi 
zongtong zhishu de zongjiao tuanti hezuo weiyuanhui daibiaotuan 
yixing], 18 November 09; ``Beijing Visit of Moscow Patriarch May Revive 
Russian Orthodox Church in PRC,'' South China Morning Post, 7 July 06 
(Open Source Center, 7 July 06).
    \166\ At the provincial level, see Heilongjiang Regulation on the 
Management of Religious Affairs [Heilongjiang sheng zongjiao shiwu 
guanli tiaoli], issued 12 June 97, effective 1 July 97, art. 2; Inner 
Mongolia Autonomous Region Implementing Measures for the Management of 
Venues for Religious Activity [Nei menggu zizhiqu zongjiao huodong 
changsuo guanli shishi banfa], issued 23 January 96, art. 2.

                                 <all>

</pre></body></html>
